APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2020
Argued: November 18, 2020
Decided: January 12, 2021
Docket No. 19-3482
DEVAR HURD,
Plaintiff-Appellant,
v.
STACEY FREDENBURGH,
IN HER INDIVIDUAL CAPACITY,
Defendant-Appellee.†
Before:
WALKER, KATZMANN, WESLEY, Circuit Judges.
Appeal from a judgment of the United States District Court for the Eastern District of New York
(Matsumoto, J.), dismissing the complaint for failure
to state a claim.
Because of errors in his sentencing calculation,
Plaintiff-Appellant Devar Hurd was incarcerated for
almost a year past the date on which state law mandated his release. Hurd sued Defendant-Appellee
Stacey Fredenburgh, a New York State prison official, alleging that she violated his Eighth and Four-

The Clerk of the Court is directed to amend the official caption
as set forth above.
†

2a
teenth Amendment rights by keeping him imprisoned based upon those errors. The district court concluded that Hurd’s alleged injury was not cognizable
under either constitutional provision and, in the alternative, that Fredenburgh was entitled to qualified immunity.
We agree with the district court that the complaint
should be dismissed, but agree with its reasoning
only in part. Contrary to the district court’s determination, we hold that Hurd alleged a harm of constitutional magnitude under the Eighth Amendment
because New York State lacked authority to detain
him past his mandatory conditional release date. We
also hold that Hurd had a liberty interest in his
right to conditional release protected by the Fourteenth Amendment’s substantive due process
clause, and the district court erred in concluding
otherwise. But because neither of these rights was
clearly established before today, Fredenburgh is entitled to qualified immunity for any responsibility she
may have had for Hurd’s prolonged detention.
Accordingly, we AFFIRM the judgment of the district court.
JACOB LOUP (Joel B. Rudin, on the brief), Law Offices
of Joel B. Rudin, P.C., New York, NY, for Plaintiff-Appellant.
LINDA FANG, Assistant Solicitor General (Barbara
D. Underwood, Solicitor General, Anisha S. Dasgupta, Deputy Solicitor General, on the brief), for
Letitia James, Attorney General of the State of New
York, New York, NY, for Defendant-Appellee.

3a
WESLEY, Circuit Judge:
Devar Hurd was charged in a single state indictment with nine misdemeanors and one felony, which
took three trials to resolve. He remained in local custody throughout the lengthy trial process. Hurd received a sentence specific to each conviction, but
those sentences merged into one by operation of New
York law. When Hurd was transferred into state
custody to serve what became his single felony sentence, his credit for time already served and good
behavior entitled him to immediate release. But Hurd
was not released from state custody for nearly a year.
He contends this prolonged incarceration violated his
rights under the Eighth Amendment and the Fourteenth Amendment’s substantive due process clause.
BACKGROUND1
Devar Hurd was arrested in July 2013 and indicted for seven counts of misdemeanor criminal contempt in the second degree, one count of misdemeanor
stalking in the fourth degree, one count of misdemeanor harassment in the first degree, and one count
of felony stalking in the second degree. He was held in
the custody of the New York City Department of Correction (“NYCDOC”) following his arrest, where he remained during multiple trials on the indictment.
Hurd’s first trial in December 2014 ended in a
mistrial. At his retrial in October 2015, the jury convicted Hurd of the nine misdemeanor counts; the state
court declared a mistrial on the felony. The state
court imposed a set of definite sentences for the misdemeanors ranging from 90 days to one year each,
Except as otherwise noted, these facts are as alleged in Hurd’s
First Amended Complaint.
1

4a
to run consecutive to the others, in the custody of
NYCDOC. Under New York law however, because
the aggregate term of these definite sentences exceeded two years, Hurd’s term of imprisonment on
the misdemeanor counts was capped at two years.
See N.Y. Penal Law § 70.30(2)(b).
Hurd faced another retrial on the felony count
in March 2016; the jury convicted him of stalking in
the second degree. The state court sentenced Hurd to
an indeterminate sentence with a minimum of oneand-one-third years and a maximum of four years,
to be served in the custody of the New York State
Department of Corrections and Community Supervision (“DOCCS”). Because the state court did not specify the manner in which Hurd’s felony sentence was to
run, New York law mandated that it would run concurrently with his two-year sentence on the misdemeanors. See id. § 70.25(1)(a). Hurd’s misdemeanor
and felony sentences also merged by operation of New
York law. See id. § 70.35. Thus, Hurd’s maximum
sentence on the indictment was four years.
Hurd would not have to serve four full years in
prison after his sentence was imposed, however.
New York law provides that any sentence “shall be
credited with and diminished by the amount of time
the person spent in custody prior to the commencement of such sentence as a result of the charge that
culminated in the sentence.” Id. § 70.30(3). This is
known as “jail-time credit.” Thus, Hurd was entitled
to credit against his maximum four-year “state sentence” for all the time he spent in NYCDOC custody
from his arrest in July 2013 to his transfer to DOCCS
custody in April 2016.

5a
New York law also provides for “good-time
credit,” whereby an inmate “may receive time allowance against the term or maximum term of his or
her sentence . . . for good behavior . . . .” N.Y. Corr.
Law § 803(1)(a). Once good-time credit is approved,
an inmate “shall, if he or she so requests, be conditionally released from the institution in which he
or she is confined when the total good behavior time
allowed to him or her . . . is equal to the unserved portion of his or her term, maximum term or aggregate
maximum term.” N.Y. Penal Law § 70.40(1)(b) (emphasis added). This is known as the inmate’s “conditional release date.”
The New York Court of Appeals has referred to a
conditional release date as “the statutorily mandated
release date, calculated by applying both his good
behavior time and his jail time, or time served awaiting
trial.” Eiseman v. New York, 70 N.Y.2d 175, 180 (1987)
(Kaye, J.) (internal quotation marks and citations
omitted). Thus, conditional release under New York
law is unlike parole, which is a discretionary decision
reserved to the judgment of the parole board. As thenJudge Kaye’s explanation suggests, conditional release is a mathematical concept: an inmate will have
completed their term of imprisonment when (1) the
number of pre- and post-trial custody days served,
plus (2) the number of approved days earned for good
behavior, equals the inmate’s sentence term. By sheer
calculation of days, the inmate has satisfied their term
of imprisonment, and they are entitled to immediate
release from prison.
Hurd was transferred from NYCDOC custody into
DOCCS custody in April 2016. Whenever an inmate
is transferred from local to state custody, the local
jurisdiction must calculate the inmate’s jail-time

6a
credit and provide DOCCS with a certified record of
that credit. See N.Y. Corr. Law § 600-a. Accordingly,
NYCDOC officials issued a “Jail Time Certification”
(“JTC”), confirming that Hurd was entitled to 996
days of jail-time credit against his maximum fouryear sentence. DOCCS officials also produced a “Legal
Date Computation,” indicating Hurd’s eligibility for
good-time credit of up to one year and four months and
jail-time credit of two years, eight months, and 26
days.
Assuming his good-time credit would be approved,
the combination of his jail-time credit and good-time
credit gave Hurd a conditional release date of March
17, 2016—pre-dating his transfer into DOCCS custody. This conditional release date was reflected on the
Legal Date Computation. Thus, at the time of his arrival in state custody, Hurd “was told that he was eligible to be immediately released.” J.A. 17. DOCCS approved Hurd’s good-time credit on April 19, 2016, at
which point he satisfied the statutory requirements
entitling him to conditional release.
DOCCS Inmate Records Coordinator Stacey Fredenburgh began to process Hurd’s release documents. Hurd’s complaint sets out a series of interactions between Fredenburgh and NYCDOC all centered around verifying the correct computation of
his local jail-time credit. Without identifying a reason for any animus towards him, Hurd alleges that
Fredenburgh and NYCDOC employees—most notably
Principal Administrative Associate for NYCDOC’s
Legal Division, Edwin Felicien—”agreed to reduce
Mr. Hurd’s jail-time credit so that he would not be
released.” J.A. 17. Between April and June 2016, Felicien sent Fredenburgh four amended JTCs, each of
which reflected a different, and much lower, jail-time

7a
credit than the 996 days reflected in the original JTC.
It is undisputed that each of these revised JTCs was
wrong. The last amended JTC credited Hurd with 508
days of jail-time credit. As a result, DOCCS no
longer considered Hurd eligible for conditional release; Hurd remained in prison.
Hurd pursued the official grievance process, filed
two notices of claim, and lodged informal letter complaints to prison officials, including Fredenburgh, protesting that he was being held past his conditional release date. Fredenburgh responded in a letter to
Hurd, telling him “that she could do nothing to address his concerns and that he must contact ‘Rikers
Island’” (an apparent reference to NYCDOC). J.A.
19. DOCCS took no other action in response to
Hurd’s complaints.
Finally, Hurd’s counsel contacted NYCDOC’s legal
department on March 20, 2017. Three days later,
NYCDOC sent an amended JTC crediting Hurd with
the original 996 days of jail-time credit. DOCCS released Hurd on March 30, 2017—11 months and 11
days after the date on which he was entitled to immediate release.
Hurd filed the instant lawsuit under 42 U.S.C.
§ 1983 against New York City (the “City”), an
NYCDOC employee, and Fredenburgh for violating
his rights under the Eighth Amendment and the
Fourteenth Amendment’s substantive due process
clause. Hurd settled with the City defendants. The district court thereafter granted Fredenburgh’s motion
to dismiss under Federal Rule of Civil Procedure
12(b)(6) for failure to state a claim, holding that
the prolonged imprisonment beyond Hurd’s mandatory conditional release date was not a cognizable

8a
injury under the Eighth and Fourteenth Amendments, and, in the alternative, that Fredenburgh was
entitled to qualified immunity.
Hurd also filed a state law false imprisonment
claim in New York’s Court of Claims. Two weeks after
the district court dismissed Hurd’s § 1983 complaint,
the Court of Claims granted summary judgment for
the State, concluding that Fredenburgh acted reasonably considering her state law obligations and
that Hurd’s prolonged detention was attributable to
the City’s errors only.2
The Court of Claims noted that NYCDOC has the
obligation under Penal Law § 600-a to send a JTC to
DOCCS when an inmate is transferred from local to
state custody. It noted further that the State “is bound
by the jail time certifications it receives from local authorities and ‘may not add or subtract therefrom.’”
Add. 34 (quoting McLamb v. Fischer, 70 A.D.3d 1090,
1091 (3d Dep’t 2010)); see also Torres Bennett, 271
A.D.2d 830, 831 (3d Dep’t 2000). Although the State
“changed its policy in 2014 to take affirmative steps
to review a local commitment order after an inmate
is returned to state custody from a local jail,” Torres
v. New York, 149 A.D.3d 1290, 1292 n.* (3d Dep’t
The parties dispute whether we can (or should) consider the
Court of Claims record in resolving this appeal. As discussed
below, we need not answer this question. We take judicial notice
of that court’s decision only to establish its existence and that
the court made certain factual findings, which is necessary to
complete the narrative of Hurd’s federal action and provide
context for Fredenburgh’s defenses. See Glob. Network
Commc’ns, Inc. v. City of New York, 458 F.3d 150, 157 (2d Cir.
2006) (citing Kramer v. Time Warner Inc., 937 F.2d 767, 774 (2d
Cir. 1991)). We do not give any effect to those factual findings,
nor do we consider them for their truth or use them to support
any factual determination (for we make none) in this appeal.
2

9a
2017), the Court of Claims found that Fredenburgh’s communications with Felicien satisfied the
necessary review.
The Court of Claims concluded that, although “Fredenburgh’s actions may have resulted in DOCCS receiving incorrect information, . . . her actions were
reasonable at the time.” Add. 35. It reasoned that the
City’s errors caused Hurd’s prolonged detention, and
Hurd’s proper recourse was against the City, not the
State. Hurd did not appeal the decision.
Hurd did appeal the dismissal of his federal complaint.
DISCUSSION
We review de novo a district court’s decision granting a Rule 12(b)(6) motion, including on qualified immunity grounds. See Hernandez v. United States, 939
F.3d 191, 198 (2d Cir. 2019); Charles W. v. Maul,
214 F.3d 350, 356 (2d Cir. 2000). In conducting our
review, we “accept as true all factual allegations and
draw from them all reasonable inferences; but we
are not required to credit conclusory allegations or
legal conclusions couched as factual allegations.”
Hernandez, 939 F.3d at 198 (citation omitted).
The crux of both of Hurd’s constitutional arguments is that “[o]n April 19, 2016, Hurd had enough
jail-time credit and approved good-time credit to
make his conditional release from prison mandatory
under state law. However, Fredenburgh worked
with an official of [NYCDOC] to reduce Hurd’s jailtime credit so that he would not be released on his
mandatory conditional release date . . . .” Appellant
Br. 2–3. The district court rejected this theory, determining that neither the Eighth Amendment nor the

10a
Fourteenth Amendment’s substantive due process
clause protects an inmate’s right to, or interest in, conditional release under state law. The district court
concluded that Hurd failed to plead a violation of his
Eighth Amendment rights because “he was released
prior to the date his maximum sentence expired,”
J.A. 39, and that Hurd failed to allege a violation of
his Fourteenth Amendment rights because he “has
no substantive due process right to conditional release” before the expiration of his maximum sentence,
J.A. 51, 54.
After finding that Hurd failed to state a claim for
violations of his Eighth or Fourteenth Amendment
rights, the district court concluded in the alternative
that Fredenburgh was entitled to qualified immunity. We agree with the district court’s latter determination, but we disagree with its conclusions that
Hurd did not plausibly allege harm to either his
Eighth or Fourteenth Amendment rights.3
Our qualified immunity analysis “is guided by two questions:
first, whether the facts show that the defendants’ conduct violated plaintiffs’ constitutional rights, and second, whether the
right was clearly established at the time of the defendants’ actions.” Golodner v. Berliner, 770 F.3d 196, 201 (2d Cir. 2014)
(internal quotation marks, alteration, and citation omitted).
“We may address these questions in either order,” and “[i]f we answer either question in the negative, qualified immunity attaches.” Id. Although it has become the virtual default practice
of federal courts considering a qualified immunity defense to assume the constitutional violation in the first question and resolve
a case on the clearly established prong, “it is often beneficial” to
analyze both prongs of the qualified immunity analysis. Pearson
v. Callahan, 555 U.S. 223, 236 (2009). “[T]he two-step procedure
promotes the development of constitutional precedent and is especially valuable with respect to questions that do not frequently arise in cases in which a qualified immunity defense
is unavailable.” Id. This is such a case.
3

11a
I.

Eighth Amendment

“A plaintiff asserting an Eighth Amendment
claim pursuant to 42 U.S.C. § 1983 must meet two
requirements. First, the alleged deprivation must be,
in objective terms, sufficiently serious. Second, the
charged official must act with a sufficiently culpable
state of mind.” Francis v. Fiacco, 942 F.3d 126, 150
(2d Cir. 2019) (internal quotation marks and citations
omitted).
To satisfy the first requirement, a plaintiff must
plead “a harm of a magnitude that violates a person’s
eighth amendment rights.” Calhoun v. N.Y. State
Div. of Parole Officers, 999 F.2d 647, 654 (2d Cir.
1993) (internal quotation marks and citation omitted).
“The Eighth Amendment[] . . . proscribes more than
physically barbarous punishments. It prohibits penalties that are grossly disproportionate to the offense,
as well as those that transgress today’s broad and idealistic concepts of dignity, civilized standards, humanity, and decency.” Hutto v. Finney, 437 U.S. 678, 685
(1978) (internal quotation marks, alteration, and citations omitted).
The constitutional claim is not measured by the
punishment alone, for “an Eighth Amendment violation typically requires a state of mind that is the
equivalent of criminal recklessness.” Francis, 942
F.3d at 150 (internal quotation marks and citation
omitted). “This standard requires that only the deliberate infliction of punishment, and not an ordinary
lack of due care for prisoner interests or safety, lead
to liability.” Id. (alteration and citation omitted).
Under this standard, prison officials can be found
“deliberately indifferent to their own clerical errors
on the basis of their refusals to investigate well-

12a
founded complaints regarding these errors.” Id. at 151
(internal quotation marks and citations omitted). The
district court concluded that Hurd failed to allege a
harm of constitutional magnitude because he was released before his maximum sentence expired. We disagree. The Eighth Amendment prohibits “the unnecessary and wanton infliction of pain,” including punishments that are “totally without penological justification.” Gregg v. Georgia, 428 U.S. 153, 173, 183
(1976). There is no penological justification for incarceration beyond a mandatory release date because “any deterrent and retributive purposes served
by [the inmate’s] time in jail were fulfilled as of that
date.” See Sample v. Diecks, 885 F.2d 1099, 1108 (3d
Cir. 1989).
“Next to bodily security, freedom of choice and
movement has the highest place in the spectrum of
values recognized by our Constitution.” Id. at 1109.
For that reason, unauthorized detention of just one
day past an inmate’s mandatory release date qualifies as a harm of constitutional magnitude under the
first prong of the Eighth Amendment analysis.4
We acknowledge that, in Calhoun, we stated that a “five-day extension of [the plaintiff’s] release date did not inflict ‘a harm
of a magnitude’ that violates a person’s eighth amendment
rights.” 999 F.2d at 654. But we did not announce this as a
constitutional rule. The single paragraph devoted to the plaintiff’s Eighth Amendment claim in Calhoun included only a descriptive, rather than normative, discussion of this issue, and we
are not bound by its conclusion in announcing a constitutional
rule here.
Indeed, in Calhoun we cited to Sample, which relied on the deliberate indifference prong as dispositive in cases of unavoidable
administrative delay, mistakes, errors, and accidents. See, e.g.,
Sample, 885 F.2d at 1109 (“Because such discretion is necessary
to the administration of prisons, an official acting in good faith
4

13a
Hurd’s unauthorized imprisonment for almost one
year certainly qualifies under that standard. See id.
(“Detention for a significant period beyond the term of
one’s sentence inflicts a harm of a magnitude [recognized under the Eighth Amendment].”).
It matters not that Hurd was detained past his
statutory conditional release date as opposed to the
expiration of the maximum sentence imposed on him
by the sentencing judge. By using the word “shall,”
New York chose to make conditional release mandatory upon the approval of good-time credit and
the inmate’s request for release. See N.Y. Penal Law
§ 70.40(1)(b). It is the mandatory nature of that release, not the label of “conditional” or “maximum,”
that is dispositive.
In effect, Hurd’s conditional release date became
the operative date on which his maximum term of
imprisonment expired. Once Hurd met the statutory
requirements for conditional release, his release from
prison was mandatory under state law. Fredenburgh
does not dispute that DOCCS had no authority to
keep Hurd incarcerated past his conditional release
date for the crimes of which he was convicted and
sentenced. Even assuming the State could impose
within that discretion, although in the process perhaps injuring
an inmate, has not inflicted a cruel and unusual punishment
upon that inmate.”). This approach—recognizing a harm of constitutional magnitude whenever an inmate is detained without
authorization but finding a constitutional violation only where
that harm is deliberately inflicted—avoids the arbitrary task of
distinguishing between the permissible and impermissible
length of unauthorized detention under the Constitution. Moreover, it reflects the notion that freedom from unlawful restraint is a right so core to our understanding of liberty that
suffering even one day of unlawful detention is a harm recognized
by the Constitution.

14a
some supervisory conditions following Hurd’s release,5 his continued imprisonment was a punishment
that was neither authorized by law nor justified by any
penological interest asserted by the State. See Sample, 885 F.2d at 1108. Because the State detained
him for over 11 months past the last date on which
New York law authorized his imprisonment, Hurd
suffered a harm of constitutional magnitude under
the Eighth Amendment. The district court erred in
concluding otherwise.
That does not mean Hurd suffered a violation of
his Eighth Amendment rights, however. Nor does it
mean an inmate whose release is not processed on
their conditional release date is entitled to damages
under § 1983. Far from it. If a period of prolonged detention results from discretionary decisions made in
good faith, mistake, or processing or other administrative delays, as opposed to the deliberate indifference of prison officials, then there is no Eighth
Amendment liability. The deliberate indifference
prong will do most of the work under these and similar circumstances, as “[t]he degree to which a harm is
New York law provides that inmates granted conditional release “shall be under the supervision of the state department
of corrections and community supervision for a period equal
to the unserved portion of the [maximum] term,” and that “[t]he
conditions of release, including those governing post-release supervision, shall be such as may be imposed by the state board
of parole in accordance with the provisions of the executive law.”
N.Y. Penal Law § 70.40(1)(b); see also N.Y. Exec. Law § 259-c(2)
(granting the state board of parole authority of “determining
the conditions of release of the person who may be . . . conditionally released”). As noted above, the State’s right to impose
some form of punishment through supervision or other conditions of release (if any) does not justify a punishment of imprisonment that is unauthorized by law.
5

15a
‘unnecessary’ in the sense of being unjustified by the
exigencies of prison administration will affect the
state-of-mind requirement a plaintiff must meet to
demonstrate that a particular prison official violated
the eighth amendment.” Sample, 885 F.2d at 1109.
To that end, the district court concluded that “Fredenburgh’s alleged conduct is troublesome and would
certainly satisfy deliberate indifference if not willfulness, as [Hurd] alleges Fredenburgh agreed with Felicien to keep [Hurd] incarcerated past his conditional release date.” J.A. 57. Fredenburgh argues that
collateral estoppel applies here because of the Court
of Claims’ finding that she acted reasonably under
the circumstances, and that Hurd is therefore precluded from arguing that Fredenburgh acted with deliberate indifference.
Regardless of the Court of Claims’ decision, we
are skeptical that Fredenburgh—whom Hurd failed
to demonstrate has any authority or duty to change
an erroneous JTC from the City—can be deliberately
indifferent to any harm suffered because of that error.
There must be “a causal connection between the official’s response to the problem and the infliction of
the unjustified detention,” Sample, 885 F.2d at 1110,
and if Fredenburgh could not do anything about
Hurd’s prolonged detention as a matter of law, then
any deliberate indifference on her part would likely be
irrelevant.
For example, in this case, Hurd cites to no authority or factual allegations establishing that Fredenburgh had an obligation under New York law or
DOCCS policy to confirm the accuracy of the JTCs
she received. Nor is it clear how Fredenburgh would
or could have accomplished that, given that Penal Law

16a
§ 600-a delegates the sole responsibility for certifying
jail-time credit to NYCDOC, and the relevant information would be contained within NYCDOC records
regardless. Nor are there any allegations that the
prison had “procedures in place calling for [Fredenburgh] to pursue the matter,” or that “given . . .
[Fredenburgh’s] job description or the role . . . she has
assumed in the administration of the prison, [the jailtime credit] calculation problem will not likely be
resolved unless . . . she addresses it or refers it to
others . . . .” Id. Hurd’s legal conclusion that Fredenburgh had such a duty or responsibility is not entitled to unquestioned acceptance at the motion to dismiss stage.
We acknowledge that Hurd’s allegations do not
concern only Fredenburgh’s ability to change his jailtime credit but also her alleged conduct in agreeing to
create the erroneous JTCs to keep Hurd in prison in
the first place. As the district court concluded, such
allegations could amount to deliberate indifference.
We need not resolve this issue. Nor do we reach the issue of whether the Court of Claims’ reasonableness
finding has preclusive effect here. Because it was not
clearly established that prolonged detention past
one’s mandatory conditional release date constitutes
a harm of constitutional magnitude under the Eighth
Amendment, Fredenburgh is entitled to qualified
immunity on Hurd’s claim. Before addressing that
point, however, we turn to Hurd’s Fourteenth
Amendment argument.
II.

Fourteenth Amendment

The Fourteenth Amendment guarantees “more
than fair process”; it “cover[s] a substantive sphere

17a
as well, barring certain government actions regardless of the fairness of the procedures used to implement them.” Cnty. of Sacramento v. Lewis, 523 U.S.
833, 840 (1998) (internal quotation marks and citations
omitted). “Substantive due process rights safeguard
persons against the government’s exercise of power
without any reasonable justification in the service of
a legitimate governmental objective.” Southerland v.
City of New York, 680 F.3d 127, 151 (2d Cir. 2012)
(internal quotation marks and citation omitted).
“The first step in substantive due process analysis
is to identify the constitutional right at stake.” Kaluczky v. City of White Plains, 57 F.3d 202, 211 (2d Cir.
1995). Next, the plaintiff “must demonstrate that
the state action was so egregious, so outrageous,
that it may fairly be said to shock the contemporary
conscience.” Southerland, 680 F.3d at 151–52 (internal
quotation marks and citation omitted). “The interference with the plaintiff’s protected right must be so
shocking, arbitrary, and egregious that the Due Process Clause would not countenance it even were it accompanied by full procedural protection.” Id. at 152
(internal quotation marks and citation omitted).
The district court rejected Hurd’s substantive due
process claim, concluding that he lacked a cognizable
liberty interest in conditional release because it is a
state-created right. We disagree.
The district court reasoned that conditional release
“is clearly a state-created right, as the Supreme Court
has held that conditional release is not protected by
the Constitution.” J.A. 51. Although “[t]here is no
right under the Federal Constitution to be conditionally released before the expiration of a valid sentence,”
Swarthout v. Cooke, 562 U.S. 216, 220 (2011), that

18a
does not establish that state inmates lack a liberty
interest in conditional release where the state has created a statutory mechanism providing for mandatory
conditional release for eligible inmates. It means only
that an inmate has no constitutional right to demand
or expect conditional release where the incarcerating
authority does not offer such an opportunity under its
law.6
Because “[f]reedom from bodily restraint has always been at the core of the liberty protected by the
Due Process Clause from arbitrary governmental action[,] . . . commitment for any purpose constitutes a
significant deprivation of liberty that requires due
process protection.” Foucha v. Louisiana, 504 U.S. 71,
80 (1992) (internal quotation marks and citations
omitted); see also Davis v. Hall, 375 F.3d 703, 712
(8th Cir. 2004) (noting that individuals have a “protected liberty interest in being free from wrongful,
prolonged incarceration”). Inmates eligible for mandatory conditional release are not limited to the confines of procedural due process in protecting that
Along these lines, the district court relied on our reaffirmation
in Graziano v. Pataki, 689 F.3d 110, 114–15 (2d Cir. 2012) (per
curiam), that New York inmates lack a liberty interest in parole
because New York’s parole scheme does not create a legitimate
expectation of release. But New York’s parole scheme differs
from the promise of conditional release. No inmate is entitled to
parole; it is a discretionary decision reserved to the judgment of
the parole board. See id. at 113–14. All state inmates are eligible
for conditional release. Unlike parole, where inmates have only
a possibility or probability of being granted the chance to complete their sentence outside prison, inmates such as Hurd who
satisfy the statutory requirements for conditional release are
guaranteed immediate release from prison. That difference creates a legitimate expectation of release, and by extension a
liberty interest protected by the due process clause.
6

19a
right. Cf. Swarthout, 562 U.S. at 220. They also
are entitled to substantive due process protection
against egregious and arbitrary government interference.
Substantive due process protects rights that are
rooted in the principles of ordered liberty. Freedom
from unlawful restraint is exactly that. Hurd remained in prison for almost one year while the State
lacked any authority to further detain him. Because
New York’s conditional release scheme is mandatory,
there is no meaningful difference in Hurd’s liberty
interest in release from prison at the expiration of
his maximum sentence and conditional release when
he became entitled to an earlier release date. Once
Hurd’s good-time credit was approved, the expiration
date of his maximum term of imprisonment and his
“conditional” release date were one and the same for
substantive due process purposes.
It is of no moment that conditional release is a
state-created right. Although many state-created
rights are not recognized under the substantive due
process clause, state-created rights that trigger core
constitutional interests are entitled to its protection.
Cf. Local 342, Long Island Pub. Serv. Emps. v. Town
Bd. of Town of Huntington, 31 F.3d 1191, 1196 (2d
Cir. 1994) (explaining that the substantive due process clause does not protect “simple, state-law contractual rights, without more”). It is the nature of
the right, not just its origin, that matters. Conditional
release under New York law is not akin to a statecreated right of contract; it is a state-created right of
mandatory release from prison, preventing unlawful
continued physical restraint. Cf. Harrah Indep. Sch.
Dist. v. Martin, 440 U.S. 194, 198 (1979) (“[I]nterest[s]
entitled to protection as a matter of substantive due

20a
process [must] resembl[e] the individual’s freedom of
choice with respect to certain basic matters of procreation, marriage, and family life.” (internal quotation
marks and citation omitted)); see also Local 342, 31
F.3d at 1196 (substantive due process protects
rights that are “so vital that neither liberty nor justice
would exist if they were sacrificed” (internal quotation
marks and citation omitted)). That distinction makes
all the difference. Once Hurd satisfied the statutory
requirements for conditional release, he had a liberty
interest in freedom from detention upon his conditional release date, as guaranteed by New York law.7
Fredenburgh’s error is considered at the second
step of the substantive due process analysis—the nature of the alleged interference with Hurd’s liberty
interest. Specifically, we must determine whether
Fredenburgh’s conduct was egregious and shocking
to the conscience.
The district court reasoned that, “if true,
[Hurd’s] allegations that Fredenburgh intentionally
took actions to keep [Hurd] imprisoned without justification might shock the judicial conscience . . . .” J.A.
52. Here, too, Fredenburgh argues that collateral estoppel applies because of the Court of Claims’ finding
Although Fredenburgh does not raise the issue, we
acknowledge that the Supreme Court cautions against expanding the substantive due process clause where a more
specific Amendment provides a source for protection against government conduct. See, e.g., Lewis, 523 U.S. at 842. Our holding
does not expand the protection of the Fourteenth Amendment’s
substantive due process clause, however. We are applying the
clause to one of the explicit concepts it exists to protect: liberty
from unjustified restraint. Cf. Davis, 375 F.3d at 714. Our conclusion that Hurd also alleged a harm of constitutional magnitude under the Eighth Amendment does not deprive him of a liberty interest in his mandatory conditional release.
7

21a
that she acted reasonably under the circumstances,
which precludes any finding in this case that her conduct satisfied the high standard for a substantive due
process violation. Again, we need not reach this issue,
because it was not clearly established that Hurd had
a liberty interest in his mandatory conditional release at the time of the sentencing miscalculations.
III.

Clearly Established Law

“Government actors are entitled to qualified immunity insofar as their conduct does not violate
clearly established statutory or constitutional rights
of which a reasonable person would have known.”
Okin v. Vill. of Cornwall-On-Hudson Police Dep’t,
577 F.3d 415, 432–33 (2d Cir. 2009) (internal quotation marks and citation omitted). “The relevant, dispositive inquiry in determining whether a right is
clearly established is whether it would be clear to a
reasonable officer that his conduct was unlawful in
the situation he confronted.” Id. at 433 (citation omitted). “The principle of qualified immunity ensures
that before they are subjected to suit, officers are
on notice their conduct is unlawful.” Id. (internal
quotation marks and citation omitted).
Fredenburgh is entitled to qualified immunity under this standard. It was not clearly established during the period of Hurd’s prolonged detention that an
inmate suffers harm of a constitutional magnitude under the Eighth Amendment when they are imprisoned
past their mandatory conditional release date, nor was
it clearly established that an inmate has a liberty interest in mandatory conditional release protected by
the Fourteenth Amendment’s substantive due process
clause. Hurd nevertheless urges us to find that these
rights were clearly established because they follow

22a
from existing precedent. For his Eighth Amendment
claim, Hurd relies on Sample, 885 F.2d 1099, Calhoun, 999 F.2d 647, Sudler v. City of New York, 689
F.3d 159 (2d Cir. 2012), and Francis, 942 F.3d 126.
These cases confirm a uniform legal principle that no
federal, state, or local authority can keep an inmate
detained past the expiration of the sentence imposed
on them. But in the qualified immunity analysis, the
Supreme Court has admonished that rights should not
be defined at a high level of generality and instead
must be “particularized to the facts of the case.”
White v. Pauly, 137 S. Ct. 548, 552 (2017) (internal
quotation marks and citation omitted). None of the
cases upon which Hurd relies addresses a conditional
release scheme, let alone one in which an inmate
is entitled to mandatory release prior to the expiration of their maximum sentence. More to the point,
none of them confirm that prolonging an inmate’s
detention past their conditional release date might
violate the inmate’s rights under the Eighth Amendment.
Sample concerned Pennsylvania inmate Joseph
Sample, who was granted bail pending a new trial
after his life sentence was vacated on appeal. 885 F.2d
at 1102. The senior records officer at a Pittsburgh detention facility was instructed to determine whether
Sample could be released; the officer erroneously informed authorities that Sample still had time left on
another sentence. Id. Sample served nine extra
months in prison as a result. Id. at 1102–03.
Because of his authority and job responsibilities,
the records officer’s error rendered him liable under
the Eighth Amendment. Id. at 1110–12. Specifically,
the Third Circuit held that prolonged incarceration
past the expiration of a prison sentence constitutes

23a
punishment under the Eighth Amendment. Id. at
1108. Where there is no penological justification for
that incarceration, as determined by the deliberate indifference prong, that punishment is cruel and unusual; and to be liable under § 1983, the officer’s deliberate indifference must have caused the prolonged incarceration. Id. at 1108–11.
To be sure, Sample clearly established that “imprisonment beyond one’s term constitutes punishment within the meaning of the eighth amendment.”
885 F.2d at 1108. But it did not establish that the
Eighth Amendment prohibits imprisonment beyond
a mandatory conditional release date that occurs
prior to the expiration of the maximum sentence.
Calhoun concerned New York inmate Bennie Calhoun, who was sentenced to a maximum term of six
years, released on parole, arrested for a parole violation with two months left on the maximum term, and
reincarcerated on a finding of probable cause for the
parole violation. 999 F.2d at 650. The parole board declared Calhoun a “delinquent,” meaning the time between his arrest and reincarceration—in this case, five
days—was added to his maximum sentence. Id. at
650–51. New York law entitled Calhoun to a final
parole revocation hearing to determine his guilt on
the parole violation, but his amended maximum sentence expired before this hearing could take place, and
Calhoun was administratively discharged. Id. He sued
based on this prolonged incarceration of five days. Id.
at 651–52.
We focused on Calhoun’s due process claim—that
he was sentenced based on a parole violation charge,
rather than any finding of guilt. Id. at 652–54. But in
a single paragraph, we noted (again, as a descriptive

24a
matter) that five extra days in prison does not satisfy
the constitutional harm prong of the Eighth Amendment analysis, and even if it did, Calhoun could not
show any deliberate indifference and his Eighth
Amendment claim failed. Id. at 654. We distinguished
those five days from the nine months of prolonged
detention in Sample—long enough to qualify as
harm of a constitutional magnitude. Id. Thus, at most,
Calhoun reinforced Sample’s holding that unlawful
detention past the expiration of a maximum sentence
constitutes punishment under the Eighth Amendment. Like Sample, Calhoun did not touch on conditional release.
Sudler concerned New York inmates who were
sentenced to felony state prison terms, released on
parole, convicted of misdemeanor parole violations,
sentenced to concurrent sentences in City custody for
those parole violations, and denied “parole jail-time
credit” by prison officials upon their transfer back
into state custody to complete their original sentence
terms. 689 F.3d at 162–65. By denying the inmates
credit for the time served on their misdemeanor
parole violations against their felony prison terms, the
prison officials effectively imposed consecutive sentences and prolonged the terms of the inmates’ sentences, without an order from the sentencing judges.
We held that the prison officials were entitled to
qualified immunity because it was not clearly established that an inmate’s procedural due process rights
are violated when an administrator alters a sentence
imposed by the court. Id. at 174–77. After introducing
the inmates’ due process theory, we noted in a footnote
that “[w]e have suggested in the past, and other courts
within and without this Circuit have held, that detention beyond that authorized by law may violate the

25a
Eighth Amendment.” Id. at 169 n.11. In addition to
Sample, we cited to Calhoun for support, describing
the latter decision as “assuming that detention of a
prisoner beyond the end of his term could violate the
Eighth Amendment in appropriate circumstances,
but finding no violation where the unauthorized detention lasted only five days and the plaintiff failed
to demonstrate the defendants’ deliberate indifference.” Id. Because no party in Sudler raised the issue,
however, any Eighth Amendment claim was waived.
Id. Accordingly, Sudler only reinforces the principle
established in Sample and acknowledged in Calhoun that the Eighth Amendment protects against
prolonged imprisonment that is not authorized by
law. It too did not discuss conditional release or how
conditional release relates to the expiration of a maximum term of imprisonment.
Francis concerned New York inmate Byran Francis, who was sentenced in state court to serve time
concurrent with a federal sentence yet to be imposed,
contrary to New York law. 942 F.3d at 131–35. The
subsequently imposed federal sentence was not ordered to run concurrently with the previously imposed state sentence. Id. at 132. After Francis commenced his federal sentence, DOCCS officials realized the state court’s error, determined of their
own accord that Francis’s sentences were consecutive, and requested the federal authorities transfer
him back to state custody at the completion of his
federal sentence, without seeking clarification or
providing Francis an opportunity to be heard. Id. at
134–36. Upon release from federal custody into state
custody, Francis sought resentencing in state court
and was released four months later. Id. at 136–37.

26a
We held that this violated the Francis’s procedural
due process rights. Id. at 141–45. The officials were
entitled to qualified immunity, however, because the
specific procedural protections to which we found Francis entitled were not clearly the merits of Francis’s
Eighth Amendment claim in determining that the officials were entitled to qualified immunity for any constitutional violation. Id. at 149–51. We acknowledged
in Francis that “[n]o case establishes that these
four months of additional incarceration, although of
serious dimension, crossed the threshold of sufficient
objective seriousness to constitute cruel and unusual
punishment under the Eighth Amendment.” Id. at 150
(internal quotation marks, alteration, and citation
omitted). In doing so, we rejected the inmate’s argument that Haygood v. Younger, 769 F.2d 1350, 1352–
53, 1358 (9th Cir. 1985) (en banc)—where an inmate
remained incarcerated for five years due to an erroneous interpretation of state law—and Sample, 885
F.2d 1099, clearly foreshadowed a constitutional determination.
Although these courts hinted at the outcome in
this case, our legal conclusion was not manifest.
Each case concerns detention beyond an inmate’s
maximum sentence. Before today, we have never
held that an inmate suffers a constitutional harm
under the Eighth Amendment when they are detained
beyond a statutorily mandated release date, even if
that mandatory release date precedes the expiration
of the maximum term of their sentence. It was clearly
established that New York State could not detain
Hurd past the expiration of his maximum sentence,
but it was not clearly established that once Hurd’s

27a
conditional release date was approved, continued detention beyond that date qualifies as a constitutional harm for Eighth Amendment purposes.
As for his substantive due process claim, Hurd admits that no decision has held that imprisonment
past a mandatory conditional release date violates
the Fourteenth Amendment’s substantive protections. He nevertheless argues that “such a conclusion
follows inescapably from the procedural due process
cases, as a prisoner must have such a right once state
officials have actually granted him discretionary
early release.” Appellant Br. 39.
We disagree. The substantive due process analysis
differs from procedural due process; and it is not the
case that one must follow from the other. And for the
same reasons that our precedents do not dictate the
outcome of his Eighth Amendment claim, Hurd’s liberty interest in conditional release does not obviously
follow from the procedural due process cases upon
which Hurd relies.
Fredenburgh is therefore entitled to qualified immunity on Hurd’s Eighth and Fourteenth Amendment claims.
CONCLUSION
For the reasons stated above, we AFFIRM the
judgment of the district court.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed Sept. 26, 2019]
DEVAR HURD,
Plaintiff,
-against-

18-CV-3704(KAM)(JO)

CITY OF NEW YORK, et al.,
Defendants.
MEMORANDUM & ORDER
MATSUMOTO, United States District Judge:
Plaintiff Devar Hurd (“Hurd” or “plaintiff”)
brought this action pursuant to 42 U.S.C. § 1983 by
filing a complaint on June 26, 2018, naming as defendants the City of New York, Salathia Mixon, and Stacey
Fredenburgh (“Fredenburgh” or “defendant”). (See
ECF No. 1, Compl.) The Complaint alleges Mixon,
Fredenburgh, and the City deprived plaintiff of his
constitutional rights under the Eighth and Fourteenth Amendments due to an error in his sentencing
calculations that caused plaintiff to be imprisoned
past his conditional release date. (Id. at 1.) Plaintiff
filed an amended complaint on November 2, 2018,
bringing largely the same claims but dropping state
law claims against defendant Fredenburgh. (See ECF
No. 23, Am. Compl.). On June 7, 2019, the City of New
York and Mixon reached a settlement agreement with
Hurd, and were subsequently dismissed from this action. (See ECF No. 53, Settlement Agreement; ECF
No. 54, Order Dismissing Parties.) Plaintiff seeks

29a
monetary damages due to his alleged wrongful imprisonment in violation of the Due Process Clause of the
Fourteenth Amendment and of the Cruel and Unusual Punishment Clause of the Eighth Amendment.
Fredenburgh, the only remaining defendant, now
moves this court to dismiss plaintiff’s amended complaint pursuant to Federal Rule of Civil Procedure
12(b)(6) (“Rule 12(b)(6)”) for failure to state a claim.
(See ECF No. 33, Mot. to Dismiss; ECF No. 34, Def.’s
Mem. (“DM”); ECF No. 35, Pl.’s Opp. (“Opp.”); ECF
No. 36, Def.’s Reply (“Reply”).) For the reasons discussed below, the court GRANTS defendant’s motion
and finds that plaintiff’s Fourteenth Amendment due
process claim fails because he did not plead a substantive due process right, that plaintiff fails to plead a
violation of his Eighth Amendment rights because he
was released prior to the date his maximum sentence
expired, and that regardless of those deficiencies, defendant is entitled to qualified immunity.
BACKGROUND
The following facts are drawn exclusively from
plaintiff’s Amended Complaint. Hurd was arrested on
July 23, 2013, and charged under Indictment No.
3134-2013 (the “Indictment”), (Am. Compl. 3), and
was held in the custody of New York City’s Department of Correction (“NYCDOC”), (id. at 6). On October
8, 2015, after a second trial on the Indictment, Hurd
was convicted on nine of ten counts submitted to the
jury; the court declared a mistrial as to the tenth
count. (Id. at 4.) The nine counts of conviction were all
misdemeanors,1 and on October 23, 2015, Hurd received consecutive one-year definite sentences for
The misdemeanor counts consisted of seven counts of criminal
contempt in the second degree, N.Y. Penal Law § 215.50(3); one
1

30a
each of the seven counts of criminal contempt in the
second degree; a 90-day definite sentence for the count
of stalking in the fourth degree; and a 90-day definite
sentence for the count of harassment in the first degree. (Id.) By operation of law, however, the maximum
term of incarceration Hurd could serve for these consecutive, definite sentences was two years. (Id.); see
N.Y. Penal Law § 70.30(2)(b).
On March 18, 2016, after a third trial on the Indictment, a jury convicted Hurd of the remaining
count, stalking in the second degree, a felony (the
“Felony Count”). (Id.); see N.Y. Penal Law § 120.55(2).
On March 31, 2016, Hurd received an indeterminate
prison sentence, with a minimum of one-and-onethird years, and a maximum of four years, to be served
in the custody of New York State’s Department of Corrections and Community Supervision (“DOCCS”), and
that was required to run concurrently with his sentence on the misdemeanor counts. (Am. Compl. 5.) By
operation of law, Hurd’s indeterminate sentence on
the Felony Count merged with the definite sentences
on the misdemeanor counts and, accordingly, Hurd’s
maximum term of imprisonment for the ten counts of
conviction was four years. (Id.)
On or about April 14, 2016, Hurd was transferred
from NYCDOC custody to DOCCS custody at Ulster
Correctional Facility. (Id. at 6.) Accordingly,
NYCDOC officials issued a “Jail Time Certification”
(“JTC”) certifying that Hurd was entitled to 996 days
of jail-time credit under N.Y. Penal Law § 70.30(3), for
time served in City custody while awaiting trial and
count of stalking in the fourth degree, id. § 120.45(1); and one
count of harassment in the first degree, id. § 240.25. (Am. Compl.
4.)

31a
sentencing. (Id. at 5-6.) Concurrently, Hurd alleges,
DOCCS officials produced a “Legal Date Computation” indicating that Hurd was eligible for good-time
credit of up to one year and four months pursuant to
N.Y. Penal Law §§ 70.30(4)(a), 70.40(1)(b), and N.Y.
Correct. Law § 803(1)(a)-(b). (Id. at 6-7.) Plaintiff’s Legal Date Computation also indicated he was entitled
to jail-time credit of two years, eight months, and 26
days. (Id. at 7.) Based on these two credits, the Legal
Date Computation further indicated that Hurd’s conditional release date, assuming his good-time credit
was approved, was March 17, 2016, i.e., nearly a
month prior to the date he was actually transferred to
state custody. (Id.) On April 19, 2016, DOCCS
awarded Hurd the full one year and four months of
good-time credit for which he was eligible. (Id.)
Hurd alleges that his jail-time credit was erroneously reduced and that, as a result, he was wrongfully
kept in prison past his conditional release date. (Id. at
8.) When Hurd was not immediately released upon
the April 19, 2016 approval of his good-time credit, he
repeatedly complained to unidentified prison officials
about his alleged wrongful imprisonment. (Id.) According to Hurd, NYCDOC employee Edwin Felicien
had spoken with defendant Fredenburgh, and the two
agreed to reduce Hurd’s jail-time credit so that he
would not be released. (Id.)
The Amended Complaint further alleges that on
May 4, 2016, defendant Fredenburgh asked Mixon for
her assistance in obtaining an amended JTC to reduce
Hurd’s jail-time credit so that DOCCS could continue
to imprison him. (Id.) Over the next few days, Mixon
told Fredenburgh multiple times that Hurd was entitled to all 996 days of jail-time credit that NYCDOC
officials had certified in Hurd’s original JTC, and that

32a
Mixon even “called sentencing review” to confirm that
Hurd’s original JTC was correct. (Id.)
On May 6, 2016, Felicien emailed Fredenburgh an
amended JTC, indicating Hurd was entitled to 507
days jail-time credit. Later that day, Felicien emailed
Fredenburgh a second amended JTC, which reduced
Hurd’s eligible jail-time credit to 469 days. (Id. at 9.)
Fredenburgh and Mixon reviewed the JTCs but neither took any action to correct these JTCs. (Id.)
Around May 13, 2016, Hurd wrote grievance letters to
defendant Fredenburgh and other DOCCS officials at
Ulster Correctional Facility demanding that they release him in accordance with the original, accurate
JTC. (Id. at 10.) On May 24 and 25, Fredenburgh responded to Hurd in writing that she could do nothing
to address his concerns and that he must instead contact “Rikers Island.” (Id.) On June 9, Felicien issued a
third amended JTC, crediting Hurd with 524 days of
jail-time credit. (Id.) Once again, on June 13, 2016, Felicien issued a fourth amended JTC crediting Hurd
with 508 days of jail-time credit. (Id.)
In late June 2016, Hurd was eventually transferred to Riverview Correctional Facility. (Id.) There
he pursued the official grievance process to the
DOCCS Central Office Review Committee, filed two
Notices of Claim, and wrote letters to various Riverview officials and the DOCCS’ Office of Sentencing Review. (Id.) DOCCS officials, however, “refused to intervene.” (Id.)
Then, on March 23, 2017, NYCDOC Assistant
General Counsel Justin Kramer instructed Mixon to
notify DOCCS that Hurd was entitled to all the jailtime credit he had originally been entitled to. (Id. at
11.) That same day, Mixon prepared an amended JTC

33a
which certified that Hurd was entitled to 996 days of
jail-time credit. (Id.) Mixon emailed this amended
JTC to an unidentified inmate records coordinator at
Riverview Correctional Facility. (Id.) This coordinator
then verified that Hurd was still entitled to all the
good-time credit for which he had been eligible when
he was first transferred to DOCCS custody, and
DOCCS accordingly conditionally released Hurd on
March 30, 2017. (Id.)
LEGAL STANDARD
Sufficiency of the Pleadings
A plaintiff must plead facts that, if accepted as
true, “state a claim to relief that is plausible on its
face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007). A complaint is facially plausible when the
“plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). A complaint need not contain detailed factual allegations, but must contain
more than mere “labels and conclusions” or a “formulaic recitation of the elements of a cause of action” or
“naked assertions” devoid of “further factual enhancement.” Id. For motions under Rule 12(b)(6), the court
assumes the truth of all facts asserted in the operative
complaint and draws all reasonable inferences from
those facts in favor of the non-moving plaintiff. Global
Network Commc’ns, Inc. v. City of New York, 458 F.3d
150, 154 (2d Cir. 2006).
DISCUSSION
Defendant moves to dismiss the Amended Complaint
pursuant to Federal Rule of Civil Procedure 12(b)(6),
for failure to state a claim upon which relief may be

34a
granted. Defendant first argues that plaintiff’s due
process rights were not violated because he did not,
and cannot, establish that he has a liberty interest in
conditional release, and that plaintiff had adequate
post-deprivation remedies in the form of an Article 78
or state habeas proceeding, that satisfy due process.
(DM 5-6.) Defendant thus contends that plaintiff’s
Fourteenth Amendment claim fails. As to plaintiff’s
Eighth Amendment claim that he was subjected to
cruel and unusual punishment, defendant argues first
that plaintiff has not pled the requisite mental culpability and deliberate indifference, and second, that
plaintiff was not held beyond his maximum release
date as a result of defendant’s alleged conduct. (Id. at
7-9.) Alternatively, defendant argues that she is entitled to qualified immunity as there is no clearly established law that proscribed defendant’s conduct.2 Id. at
9-11.)

For the first time on reply, defendant appears to argue that
plaintiff’s claims under 42 U.S.C. § 1983 are barred by Heck v.
Humphrey, 512 U.S. 477 (1994), which held that prisoner § 1983
claims that necessarily challenge the validity of a conviction or
sentence are not cognizable unless the underlying conviction or
sentence has been overturned. (Reply 5.) Applying Heck would
require this court to consider whether plaintiff’s § 1983 claims
necessarily challenges the validity of his conviction or sentence,
including its length. However, “[i]t is well-established that ‘arguments may not be made for the first time in a reply brief.’” Zirogiannis v. Seterus, Inc., 221 F. Supp. 3d 292, 298 (E.D.N.Y. 2016)
(quoting Knipe v. Skinner, 999 F.2d708, 711 (2d Cir. 1993)). The
court, therefore, will not consider “[n]ew arguments first raised
in reply papers in support of [the] motion.” Domino Media, Inc.
v. Kranis, 9 F. Supp. 2d 374, 387 (S.D.N.Y. 1998). It is worth noting, however, that Heck does not pose an absolute bar to prisoner
§ 1983 claims in this Circuit, and Heck’s application to such
claims brought by former prisoners is an open question. See generally Opperisano v. P.O. Jones, 286 F. Supp. 3d 450, 457
2

35a
Plaintiff responds that the Second Circuit has held
prisoners possess a liberty interest in earned goodtime credit and that New York’s parole system creates
a legitimate expectancy of release. (Opp. 12.) Plaintiff
also responds that defendant’s alleged deliberate indifference, supports a finding that defendant’s conduct “shocked the conscience,” thus establishing a sustainable substantive due process claim. (Opp. 10-12.)
As to his Eighth Amendment claim, plaintiff relies
on his factual allegations that Fredenburgh knew of
Hurd’s plight and refused to rectify the error, thus
supporting an inference she acted with deliberate indifference. (Id. at 6-8.) He also argues that prolonged
confinement is measured not from a prisoner’s maximum release date, but whether he was “detained after
he should have been released.” (Id. at 6.) Thus, plaintiff argues, his confinement beyond his originally calculated conditional release date makes out an Eighth
Amendment claim for cruel and unusual punishment.
Finally, responding to defendant’s assertion of
qualified immunity, plaintiff argues that defendant’s
subjective belief requires factual development and is
not suitable for disposition on a motion to dismiss. (Id.
at 17.) Second, he argues that the law was clearly established through Second Circuit precedent or that, in
the alternative, it was not objectively reasonable for
(E.D.N.Y. 2018); see also Green v. Montgomery, 219 F.3d 52, 61
n.3 (2d Cir. 2000) (“Heck acts only to bar § 1983 suits when the
plaintiff has a habeas corpus remedy available to him (i.e., when
he is in state custody). Because it does not appear that [the claimant is] presently in state custody his § 1983 action is not barred
by Heck.” (citations omitted)). In any event, the court need not
rule on whether Heck applies to the instant case, and is reluctant
to do so in light of the parties’ failure to submit fulsome briefing
on the question.

36a
defendant to believe she could not alter Hurd’s JTC
certificates because she had in fact procured changes
in the first place. (Id.)
Substantive Due Process
Plaintiff alleges that being held some 996 days beyond his conditional release date violated a substantive due process right conferred to him by New York
State Law. (Am. Compl. 11.) Defendant moves to dismiss this claim. She argues that plaintiff fails to plead
a substantive due process claim because he cannot establish a liberty interest in his conditional release
and, in any event, that he was afforded due process.
(DM 5-7.) This latter argument, however, appears to
contemplate a procedural due process claim, challenging whether plaintiff was afforded the process he was
due for the deprivation he suffered. Substantive due
process claims, on the other hand, generally require
the court to consider whether the government could
affect such a deprivation, “regardless of the fairness of
the procedures used to implement them.” Daniels v.
Williams, 474 U.S. 327, 331 (1986). For his part, plaintiff expressly denies that he brings a procedural due
process claim, (Opp. 12 n.2), and the Amended Complaint clearly states that plaintiff’s first cause of action is for a violation of his substantive due process
rights, (Am. Compl. 12). He thus argues that the
Amended Complaint satisfies the substantive due process pleading standard of “egregious” or “conscienceshocking” conduct. (Opp. 10 (citing Lombardi v. Whitman, 485 F.3d 73, 79 (2d Cir. 2007) and Pena v. DePrisco, 432 F.3d 98, 112 (2d Cir. 2005)).)
Yet, in support of plaintiff’s argument, he relies
heavily on cases in the Second Circuit, and other Circuits, clearly addressing procedural due process

37a
claims. (See id. (citing Zurak v. Regan, 550 F.2d 86,
92-93 (2d Cir. 1977) (affirming district court’s order
directing implementation of procedures at Riker’s Island for timely disposing of conditional release applications)).) Taken together, plaintiff’s disavowal of a
procedural due process claim, coupled with his citation to, and reliance on, procedural due process cases,
obscures the nature of the due process claim plaintiff
asserts and defendant seeks to dismiss.
Nevertheless, the court will take plaintiff at his
word and analyze his pleading as asserting a substantive due process claim. Due Process claims must plead
two elements: (1) that “the plaintiff had an actual interest protected by the Fifth Amendment—life, liberty
or property—at stake;” and (2) that “[d]efendants infringed on that interest in a manner that was ‘so egregious, so outrageous, that it may fairly be said to
shock the contemporary conscience.’” Southerland v.
City of New York, 680 F.3d 127, 142 (2d Cir. 2012)
(quoting County of Sacramento v. Lewis, 523 U.S. 833,
847 n.8 (1998)); see also Leder v. Am. Traffic Sols.,
Inc., 630 F. App’x 61, 62 (2d Cir. 2015) (“A substantive
due process claim under 42 U.S.C. § 1983 requires
plaintiff to show (1) a fundamental liberty interest, (2)
the deprivation of which was arbitrary in the constitutional sense.”). The “[s]ubstantive due process analysis must begin with a careful description of the asserted right, for the doctrine of judicial self-restraint
requires [the court] to exercise the utmost care whenever [the court is] asked to break new ground in this
field.” Reno v. Flores, 507 U.S. 292, 302 (1993). Thus,
plaintiff must first establish that “he possessed a liberty or property interest of which [Fredenburgh] deprived him.” Sutera v. Transp. Sec. Admin., 708 F.
Supp. 2d 304, 313 (E.D.N.Y. 2010). This he cannot do.

38a
The substantive component of the “Due Process
Clause protects only those fundamental rights and
liberties which are, objectively, deeply rooted in this
Nation’s history and tradition, as well as implicit in
the concept of ordered liberty, such that neither liberty nor justice would exist if they were sacrificed.”
United States v. Windsor, 570 U.S. 744, 808 (2013)
(Roberts, C.J., dissenting); see also Albright v. Oliver,
510 U.S. 266, 272 (1994) (noting the substantive due
process clause, for the most part, protects “matters relating to marriage, family, procreation, and the right
to bodily integrity”). “Recognized fundamental rights
include those created by the Constitution, most rights
enumerated in the Bill of Rights, and certain enumerated rights, such as the right to privacy.” St. Francis
Hosp. v. Sebelius, 34 F. Supp. 3d 234, 246 (E.D.N.Y.
2014). While certain state-created rights are entitled
to protections of procedural due process, Sandin v.
Conner, 515 U.S. 472, 483-84 (1995), “substantive due
process right[s] are created only by the Constitution.”
Regents of Univ. of Mich. v. Ewing, 474 U.S. 214, 229
(1985) (Powell, J., concurring)(emphasis added); see
also Greenholtz v. Neb. Penal Inmates, 442 U.S. 1, 7
(1979); Local 342, Long Island Pub. Serv. Emps.,
UMD, ILA, AFL–CIO v. Town Bd. of Town of Huntington, 31 F.3d 1191, 1196 (2d Cir. 1994); Barna v.
Travis, 239 F.3d 169, 170 (2d Cir. 2001).
Thus, “a government or state-created right is not a
fundamental right implicating substantive due process,” St. Francis Hosp., 34 F. Supp. 3d at 246, and the
court must look to the Federal Constitution or other
sources of protected interests “implicit in the concept
of ordered liberty,” Palko v. Connecticut, 302 U.S. 319,
325 (1937). The Supreme Court, however, has held

39a
that “[t]here is no right under the Federal Constitution to be conditionally released before the expiration
of a valid sentence.” Swarthout v. Cooke, 562 U.S. 216,
220 (2011); see also Conn. Bd. of Pardons v. Dumschat,
452 U.S. 458, 464 (1981). Even if substantive due process could reach state-created rights, “the Second Circuit has declined to opine on whether New York recognizes a liberty interest in conditional release.”
Hayes v. Annucci, No. 14-CV-8845, 2016 WL 1746109,
at *3 (S.D.N.Y. Apr. 28, 2016) (citing Doe v. Simon,
221 F.3d 137, 139 (2d Cir. 2000)); cf. Graziano v.
Pataki, 689 F.3d 110, 114–15 (2d Cir. 2012) (“We have
squarely held that because the New York parole
scheme is not one that creates a legitimate expectancy
of release, ‘[prisoners] have no liberty interest in parole, and the protections of the Due Process Clause are
inapplicable.’”).
Plaintiff alleges he was deprived of his timely conditional release from state custody. This is clearly a
state-created right, as the Supreme Court has held
that conditional release is not protected by the Constitution. Therefore, plaintiff has no substantive due
process right to conditional release, and arguably no
procedural due process right, either. Although the
court finds that, if true, plaintiff’s allegations that
Fredenburgh intentionally took actions to keep plaintiff imprisoned without justification might shock the
judicial conscience, plaintiff has failed to satisfy the
first pleading requirement for a substantive due process claim. The court therefore GRANTS defendant’s
motion to dismiss as to plaintiff’s substantive due process claim.
Were the court to construe plaintiff’s claim as one
for procedural due process violations, encompassing
state-created rights, his claim similarly would fail.

40a
First, “there is no procedural due process violation
‘when a state employee intentionally deprives an individual of property or liberty [through random, unauthorized acts by the state employee], so long as the
State provides a meaningful post [-]deprivation remedy.’” Sharp v. Inc. Vill. of Farmingdale, No. 16-CV2994, 2018 WL 4404075, at *6 (E.D.N.Y. Sept. 14,
2018) (quoting Hellenic Am. Neighborhood Action
Comm. v. City of New York, 101 F.3d 877, 880 (2d Cir.
1996)). Plaintiff does not allege that there were no
post-deprivation remedies available to him or that
they were inadequate. Even still, it is well-settled that
“an Article 78 proceeding is a perfectly adequate post[]deprivation remedy.” Grillo v. N.Y.C. Transit Auth.,
291 F.3d 231, 234 (2d Cir. 2002); see also Peterson v.
Tomaselli, 469 F. Supp. 2d 146, 165 (S.D.N.Y.
2007)(assuming without deciding New York created
legitimate expectation for inmates in conditional release and nevertheless concluding the plaintiff was afforded adequate due process in the form of Article 78
or state habeas proceeding).
Finally, the court finds that, even if plaintiff adequately pleaded either a substantive or procedural
due process violation, defendant Fredenburgh would
be entitled to qualified immunity. “The doctrine of
qualified immunity protects government officials
‘from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.’” Pearson v. Callahan, 555 U.S.
223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). Courts are free to consider either prong first, that is, whether the constitutional violation occurred, or was sufficiently alleged, or

41a
whether the constitutional right was clearly established at the time of the alleged conduct. Id. at 235-36
(holding that district courts “should . . . decide[] which
of the two prongs of the qualified immunity analysis
should be addressed first”).
First, plaintiff’s argument that defendant’s state of
mind requires factual development is unavailing. The
Supreme Court has made quite clear that the “defense
of qualified immunity may not be rebutted by evidence
that the defendant’s conduct was . . . improperly motivated.” Crawford–El v. Britton, 523 U.S. 574, 588
(1998). Evidence of subjective intent, therefore, “is
simply irrelevant to [the] defense.” Doninger v.
Niehoff, 642 F.3d 334, 349 (2d Cir. 2011) (quoting
Crawford-El, 523 U.S. at 588).
Furthermore, the law is not so clearly established
that prisoners maintain a fundamental liberty interest, or even a state-created liberty interest protected
by the procedural due process clause. See D’Angelo v.
Annucci, No. 16-CV-6459, 2017 WL 6514692, at *9
(S.D.N.Y. Dec. 19, 2017). As discussed above, “neither
the Supreme Court nor the Second Circuit has held
that the Fourteenth Amendment guarantee of freedom from incarceration without due process includes
the right to early release prior to the expiration of an
individual’s sentence.” McMillan v. Perez, No. 14-CV3854, 2016 WL 4926202, at *6 (S.D.N.Y. Sept. 14,
2016) (citing Greenholtz, 442 U.S. at 7); see also Abed
v. Armstrong, 209 F.3d 63, 66–67 (2d Cir. 2000). In
fact, district courts in the Second Circuit have indicated the opposite. See McMillan, 2016 WL 4926202,
at *6 (collecting cases). It cannot be said that the case
law clearly foreshadows finding such a right in the
context of substantive due process.

42a
Plaintiff’s two cited authorities, Zurak and Abed,
are inapposite. Though the court in Zurak may have
found that inmates have a liberty interest for conditional release worthy of procedural due process protections, that proposition has since been clearly refuted by the Second Circuit. Graziano, 689 F.3d at
114–15. Furthermore, Zurak did not address liberty
interests in the context of substantive due process.
And the court in Abed discusses a state-created liberty
interest in earned good-time credits. Here, plaintiff
does not claim that he was deprived of good-time credits without due process, but instead claims that his
release was delayed by the erroneously amended
JTCs. Neither case, therefore, clearly establishes that
prolonging detention past an inmate’s conditional release date is a constitutional violation, or that inmates
have a protected interest in earned jail-time credits
for the purposes of conditional release.
Plaintiff argues that even if there was not clearly
established law on the issue, “this is one of the rare
cases where the unlawfulness of the defendants’ conduct was so clear that qualified immunity would be
inappropriate” because her conduct was “outrageous
and patently unconstitutional.” (Opp. 17-18.) But, as
discussed above, defendant’s intent is irrelevant for
the purposes of the court’s qualified immunity determination. Thus, defendant Fredenburgh is alternatively entitled to qualified immunity as to plaintiff’s
substantive due process claims. For this and the foregoing reasons, defendant’s motion to dismiss plaintiff’s substantive due process claim is GRANTED.
Cruel and Unusual Punishment
Plaintiff brings a second claim under § 1983, alleging a violation of his Eighth Amendment right to be

43a
free from cruel and unusual punishment. (Am. Compl.
13-14.) Specifically, he alleges that Fredenburgh
knew or should have known plaintiff would have remained in prison if he did not receive the full jail-time
credit to which he was entitled. (Id. ¶ 106-08.)
Defendant also moves to dismiss this claim. She
argues that plaintiff fails to plead both the required
intent and constitutional harm because he was not imprisoned past his maximum sentence. (DM. 7.) Eighth
Amendment claims require two well-pleaded elements, one subjective and one objective. “First, the
prisoner must allege that the defendant acted with a
subjectively ‘sufficiently culpable state of mind.’”
Crawford v. Cuomo, 796 F.3d 252, 256 (2d Cir. 2015)
(quoting Hudson v. McMillian, 503 U.S. 1, 8 (1992)).
“Second, he must allege that the conduct was objectively ‘harmful enough’ or ‘sufficiently serious’ to
reach constitutional dimensions.” Id. (quoting Hudson, 503 U.S at 8, 20). What constitutes objectively
harmful or sufficiently serious conduct is “context specific,” Hogan v. Fischer, 738 F.3d 509, 515 (2d Cir.
2013), and “depends upon the claim at issue,” Hudson,
503 U.S. at 8. In the context of prolonged detention, a
defendant’s “sufficiently culpable state of mind” must
meet, at a minimum, deliberate indifference. Calhoun
v. N.Y. State Div. of Parole Officers, 999 F.2d 647, 654
(2d Cir. 1993).
The parties dispute whether plaintiff’s allegations
rise to deliberate indifference on the part of Fredenburgh. For her part, defendant Fredenburgh appears
to overlook that plaintiff alleges her intentional conduct, not just that she ignored a known risk. See
Brims v. Burdi, No. 03-CV-3159, 2004 WL 1403281, at
*2 (S.D.N.Y. June 23, 2004) (finding complaint alleged
deliberate indifference where “defendants knew, but

44a
ignored, the fact that [plaintiff’s] . . . release date was
imminent”). Whether or not these allegations are susceptible to proof, the court must accept them as true.
As noted above, Fredenburgh’s alleged conduct is
troublesome and would certainly satisfy deliberate indifference if not willfulness, as plaintiff alleges Fredenburgh agreed with Felicien to keep plaintiff incarcerated past his conditional release date. Nevertheless, the court finds that plaintiff has not satisfied the
objective pleading requirement of a harm rising to
constitutional dimensions.
Courts have found that detention prolonged beyond conditional release does not satisfy the objective
harm requirement for Eighth Amendment claims.
D’Angelo, 2017 WL 6514692, at *10 (collecting cases).
In coming to this conclusion, courts rely on the several
cases in the Second Circuit which found that detention prolonged days beyond a maximum sentence did
not violate the Eighth Amendment. See, e.g., Calhoun,
999 F.2d at 653 (holding that five days of incarceration beyond the plaintiff’s maximum sentence “did not
inflict a harm of a magnitude that violates a person’s
Eighth amendment rights”); Brims v. Burdi, No. 03CV-3159, 2014 WL 1403281, at *2 (S.D.N.Y June 23,
2004) (finding detention six days beyond maximum
sentence “not a harm of sufficient magnitude to implicate the Eighth Amendment”); Lozada v. Warden
Downstate Corr. Facility, No. 10-CV-8425, 2012 WL
2402069, at *2 (S.D.N.Y. June 26, 2012) (finding detention seven days beyond maximum sentence insufficient to bring Eighth Amendment claim). Given this
backdrop, at least two courts in this Circuit have
granted motions to dismiss a prisoner’s complaint
bringing Eighth Amendment claims where the com-

45a
plaint alleged detention prolonged beyond a conditional release date, and not a maximum release date.
See Hayes v. Annucci, No. 14-CV-8846, 2016 WL
1746109, at *5 (S.D.N.Y. April 28, 2016); D’Angelo,
2017 WL 6514692, at *10.
Because plaintiff was released prior to the expiration date of his maximum sentence, he was not exposed to any additional punishment than permitted
by the Constitution, let alone cruel and unusual punishment. Therefore, plaintiff has not sufficiently
pleaded an Eighth Amendment claim, and defendant’s motion to dismiss this claim is GRANTED.
Even if the court were to find that plaintiff has adequately pleaded an Eighth Amendment violation, defendant would be entitled to qualified immunity.
Plaintiff argues that Zurak and Abed, among others,
clearly establish that Hurd had a liberty interest in
conditional release, and that any unlawful prolonged
imprisonment violates the Eighth Amendment. (Opp.
17.) Defendant argues that caselaw within the Second
Circuit notes uncertainty around whether the detention of an inmate past a conditional release date, but
not beyond his maximum sentence, violates any constitutional right. (DM 10.) The court agrees with defendant; the relevant case law does not clearly establish or foreshadow that prolonging a prisoner’s detention beyond his conditional release date constitutes
cruel and unusual punishment. Therefore, and in the
alternative, defendant would be entitled to qualified
immunity for plaintiff’s Eighth Amendment claim.
CONCLUSION
For the foregoing reasons, defendant’s motion to
dismiss is GRANTED, and plaintiff’s Amended Complaint is dismissed in its entirety. The Clerk of Court

46a
is respectfully directed to dismiss the Amended Complaint, enter judgment, and close the case.
SO ORDERED.
Dated:

September 26, 2019
Brooklyn, New York

/s/
Kiyo A. Matsumoto
United States District Judge

47a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
[filed Nov. 2, 2018]
DEVAR HURD,
Plaintiff,
-against-

FIRST AMENDED
COMPLAINT
18-cv-3704 (KAM) (JO)

THE CITY OF NEW YORK,
SALATHIA MIXON, in her Jury Trial Demanded
individual and official
capacities, and STACEY
FREDENBURGH, in her
individual capacity,
Defendants.

Plaintiff DEVAR HURD, by his attorneys, the
LAW OFFICES OF JOEL B. RUDIN, P.C., respectfully alleges, upon information and belief, as follows:
NATURE OF THE ACTION
In April 2016, Plaintiff DEVAR HURD was legally entitled to be immediately freed from government custody, having already served in pretrial detention the entire term of the state prison sentence that
he was required to serve. Instead of being released,
however, he languished in prison for more than 11
months because city and state officials caused or
failed to correct a miscalculation of his jail-time credit.
This civil action seeks monetary damages for
Mr. Hurd, pursuant to 42 U.S.C. §§ 1983 and 1988 and
state law, due to this wrongful imprisonment—in violation of the Due Process Clause of the Fifth and Four-

48a
teenth Amendments to the United States Constitution as well as the Cruel and Unusual Punishment
Clause of the Eighth Amendment—which was substantially caused by Defendants.
JURISDICTION, VENUE, AND
CONDITIONS PRECEDENT
This action arises under 42 U.S.C. §§ 1983
and 1988, and under the common law of the State of
New York.
This Court has jurisdiction under 28 U.S.C.
§§ 1331 and 1343, and under the principles of pendent
jurisdiction.
Venue is proper under 28 U.S.C. § 1391 because a substantial part of the events giving rise to
this claim occurred in this district.
On or about June 9, 2017, Plaintiff served the
City of New York timely notice of the present claims,
in accordance with N.Y. Gen. Mun. Law § 50-e.
A hearing was held in accordance with N.Y.
Gen. Mun. Law § 50-h on November 8, 2017.
Plaintiff has duly complied with all conditions
precedent to the commencement of this action.
THE PARTIES
Plaintiff DEVAR HURD is a citizen and resident of the State of New York and of the United
States, and resides in Brooklyn, New York.
Defendant CITY OF NEW YORK (the “City”)
is a municipal corporation of the State of New York
and is a resident of the Eastern District of New York.
The New York City Department of Correction
(“NYCDOC”) is an agency of the City.

49a
Employees of the NYCDOC are agents and
employees of the City.
The City is legally responsible for torts that
NYCDOC employees commit within the scope of their
employment.
Defendant SALATHIA MIXON was, at all relevant times, a Jail Time Coordinator employed by the
NYCDOC, acting within the scope of her authority
and under color of state law. She is named here in her
individual and official capacities.
Defendant STACEY FREDENBURGH was,
at all relevant times, an Inmate Records Coordinator
employed by the New York State Department of Corrections and Community Supervision (“DOCCS”), acting within the scope of her authority and under color
of state law. She is named here in her individual capacity.
ALLEGATIONS COMMON TO
ALL CAUSES OF ACTION
Mr. Hurd’s Conviction and Sentence
2013.

Plaintiff Devar Hurd was arrested on July 23,

He was subsequently indicted under Indictment No. 3134-2013 (the “Indictment”).
The Indictment alleged several counts, all of
which were part of the same transaction or occurrence.
Mr. Hurd was held in the custody of NYCDOC
during the entire time the charges in the Indictment
were pending.

50a
On December 18, 2014, Mr. Hurd’s first trial
on the Indictment ended in a mistrial.
On October 8, 2015, after a second trial on the
Indictment, Mr. Hurd was convicted on nine of the ten
counts submitted to the jury. The court declared a
mistrial as to the remaining count.
The nine counts of conviction were all misdemeanors (the “Misdemeanor Counts”) and consisted of
seven counts of criminal contempt in the second degree, N.Y.P.L. § 215.50(3); one count of stalking in the
fourth degree, id. § 120.45(1); and one count of harassment in the first degree, id. § 240.25.
On October 23, 2015, Mr. Hurd was sentenced
on the Misdemeanor Counts as follows:
a. one-year definite sentences for each of the
seven counts of criminal contempt in the
second degree;
b. a 90-day definite sentence for the count of
stalking in the fourth degree; and
c. a 90-day definite sentence for the count of
harassment in the first degree.
The court specified that the sentences for the
Misdemeanor Counts were to run consecutively to
each other.
By operation of law, the maximum term of incarceration Mr. Hurd could serve for these consecutive definite sentences was two years. See N.Y.P.L.
§ 70.30(2)(b).
On March 18, 2016, after a third trial on the
Indictment, Mr. Hurd was convicted of the remaining
count in the Indictment, stalking in the second degree,

51a
an E felony (the “Felony Count”). See N.Y.P.L.
§ 120.55(2).
On March 31, 2016, Mr. Hurd was sentenced
on the Felony Count to an indeterminate term of state
imprisonment, with a minimum of one-and-one-third
years, and a maximum of four years, to be served in
the custody of DOCCS.
By operation of law, because the court that
sentenced Mr. Hurd to the indeterminate sentence on
the Felony Count did not specify whether that sentence was to run concurrent with, or consecutive to,
the sentences on the Misdemeanor Counts, the indeterminate sentence was required to run concurrent
with those sentences.
Further, by operation of law, Mr. Hurd’s indeterminate sentence on the Felony Count merged with
the definite sentences on the Misdemeanor Counts,
meaning that the indeterminate sentence of one-andone-third to four years could not legally run consecutive to the two years’ worth of definite sentences.
Accordingly, Mr. Hurd’s maximum term of
imprisonment under the Indictment was four years.
Mr. Hurd’s Legal Entitlement to Be
Immediately Released
At all times relevant to this complaint, New
York State law provided that the term of a sentence
imposed on a person “shall” be reduced by the amount
of time he has spent in pretrial detention on the
charges that resulted in the sentence. See N.Y.P.L.
§ 70.30(3).
Such a reduction is commonly referred to as
“jail-time credit.”

52a
The City of New York, by its officials the
NYCDOC Commissioner of Correction and his or her
employees—including Jail Time Coordinator Salathia
Mixon and Principal Administrative Associate for the
Legal Division Edwin Felicien—had a legal duty to
Mr. Hurd to provide DOCCS with an accurate calculation of all jail-time credit to which he was entitled.
See N.Y. Corr. Law § 600-a.
On or about April 14, 2016, Mr. Hurd was
transferred from the custody of NYCDOC to the custody of DOCCS at Ulster Correctional Facility.
Since Mr. Hurd had been held in NYCDOC
custody on the charges in the Indictment since July
23, 2013, he was entitled to 996 days of jail-time
credit.
NYCDOC officials issued a “Jail Time Certification” (“JTC”) certifying that Mr. Hurd was entitled
to 996 days of jail-time credit.
Upon Mr. Hurd’s transfer to DOCCS custody,
DOCCS officials received this JTC.
At all times relevant to this complaint, New
York State law provided that:
a. persons sentenced to an indeterminate
prison term are eligible for a reduction of up
to one-third of their maximum prison term
for good behavior, see N.Y.P.L. § 70.30(4)(a);
N.Y. Corr. Law § 803(1)(a)-(b); and
b. a person serving an indeterminate prison
term “shall” be “conditionally released”
upon request when the unserved portion of
his prison term is equal to the amount of
good-behavior time he has been allowed, see
N.Y.P.L. § 70.40(1)(b).

53a
The term reduction that a person receives for
good behavior is commonly referred to as “good-time
credit.”
DOCCS refers to the date on which a person
is required to be conditionally released under the
above provisions of law as the person’s “conditional release date.”
Under the above provisions of law, Mr. Hurd
was eligible for good-time credit of up to one-third of
his maximum prison term.
Since Mr. Hurd’s maximum prison term was
four years, he was eligible for good-time credit of up to
one year and four months.
Upon Mr. Hurd’s transfer to DOCCS custody,
DOCCS officials produced a “Legal Date Computation” indicating he was eligible for good-time credit of
up to one year and four months.
This Legal Date Computation also indicated,
in accordance with the JTC provided by NYCDOC officials, that Mr. Hurd was entitled to jail-time credit
in the amount of two years, eight months, and 26 days.
Based on these two credits, the Legal Date
Computation further indicated that Mr. Hurd’s conditional release date, assuming his good-time credit
were to be approved, was March 17, 2016.
On April 19, 2016, DOCCS awarded Mr. Hurd
the full one year and four months of good-time credit
for which he was eligible.
From the time of Mr. Hurd’s transfer to
DOCCS custody, he had repeatedly requested to be
immediately released.

54a
Therefore, as of April 19, 2016, Mr. Hurd was
legally entitled to be conditionally released immediately.
Mr. Hurd’s Jail-Time Credit Is Erroneously
Reduced and He Is Wrongfully Kept in Prison
At the time of Mr. Hurd’s transfer to DOCCS
custody, on or about April 14, 2016, he was told that
he was eligible to be immediately released.
Mr. Hurd was further told that DOCCS had
to process him through the state prison system before
releasing him.
He was told that this processing would take
only a few days.
Upon Mr. Hurd’s transfer to DOCCS custody,
DOCCS officials had begun preparing for his immediate release.
However, after the April 19 approval of Mr.
Hurd’s conditional release date, several days passed
and still Mr. Hurd was not released.
Mr. Hurd repeatedly complained to DOCCS
officials that he was being wrongfully imprisoned.
Unbeknownst to Mr. Hurd, after his transfer
to DOCCS custody, NYCDOC employee Edwin Felicien had spoken with Defendant Fredenburgh, and
they agreed to reduce Mr. Hurd’s jail-time credit so
that he would not be released.
On May 4, 2016, Defendant Fredenburgh
asked Defendant Mixon for her assistance in obtaining an amended JTC reducing Mr. Hurd’s jail-time
credit so that DOCCS could continue to imprison Mr.
Hurd.

55a
Over the next few days, Mixon told Fredenburgh multiple times that, in fact, Hurd was entitled
to all 996 days of jail-time credit that NYCDOC officials had certified in Hurd’s original JTC.
Mixon told Fredenburgh that she had even
“called sentencing review” and confirmed that the
original JTC was correct.
On May 6, Felicien emailed Fredenburgh an
amended JTC, which reduced Mr. Hurd’s jail-time
credit to 507 days.
This JTC was incorrect.
Fredenburgh forwarded this email and the
amended JTC to Mixon.
Mixon reviewed the JTC.
Later that day, Felicien emailed Fredenburgh
a second amended JTC, which further reduced Mr.
Hurd’s jail-time credit to 469 days.
This JTC was also incorrect.
Fredenburgh also forwarded this email and
amended JTC to Mixon.
Mixon also reviewed this JTC.
Neither Fredenburgh nor Mixon took any action to correct these erroneous JTCs.
On May 12, newly-assigned appellate counsel
for Mr. Hurd emailed Defendant Mixon requesting
Mr. Hurd’s JTC.
Mixon directed them to contact Felicien.
On May 13, Hurd sent a six-page letter to Felicien detailing the errors in Felicien’s amended JTCs
and demanding that Felicien amend Hurd’s JTC

56a
again to restore the full 996 days of jail-time credit to
which Hurd was legally entitled so that he would be
immediately given his freedom.
Mr. Felicien did not respond to Mr. Hurd.
Around the same time, Mr. Hurd wrote grievance letters to Defendant Fredenburgh and other
DOCCS officials at Ulster Correctional Facility demanding that they release him in accordance with the
original, accurate JTC.
On May 24 and 25, Fredenburgh responded in
writing to Hurd.
Fredenburgh told Hurd that she could do
nothing to address his concerns and that he must contact “Rikers Island.”
Felicien issued a third amended JTC on June
9, crediting Hurd with 524 days of jail time.
This JTC was also incorrect.
Felicien issued a fourth amended JTC on
June 13, crediting Hurd with 508 days of jail time.
This JTC was also incorrect.
In late June 2016, Mr. Hurd was transferred
from Ulster Correctional Facility to Watertown Correctional Facility, where he remained for a few days.
He was then transferred to Riverview Correctional
Facility.
At Riverview, Mr. Hurd’s Kafkaesque ordeal
continued. He desperately sought to have Felicien’s
errors corrected so that he would be granted the freedom to which he was legally entitled.

57a
Mr. Hurd pursued the official grievance process all the way up to the DOCCS Central Office Review Committee, filed two notices of claim, and wrote
letters to various Riverview officials and the DOCCS
Office of Sentencing Review.
The DOCCS officials refused to intervene.
Mr. Hurd Is Finally Released After More than
11 Months of Wrongful Imprisonment
On March 20, 2017, Mr. Hurd’s appellate
counsel wrote to the NYCDOC legal department.
Mr. Hurd’s attorney explained that Mr.
Hurd’s original JTC awarding him 996 days of jailtime credit was correct and that, accordingly, Mr.
Hurd was legally entitled to be immediately released.
On March 23, NYCDOC Assistant General
Counsel Justin Kramer instructed Defendant Mixon
to notify DOCCS that Mr. Hurd was entitled to all the
jail-time credit he had originally been credited with
almost a year before.
The same day, Mixon prepared an amended
JTC, which certified that Mr. Hurd was entitled to 996
days of jail-time credit.
This was the same amount of jail-time credit
that Mixon had told Fredenburgh that Hurd was entitled to back in May 2016.
Mixon emailed this amended JTC to an inmate records coordinator at Riverview Correctional
Facility.
This inmate records coordinator verified that
Mr. Hurd was still entitled to all the good-time credit
for which he had been eligible when he was first transferred to DOCCS custody.

58a
DOCCS conditionally released Mr. Hurd on
March 30, 2017.
Because of the actions of Defendants Mixon
and Fredenburgh and of Mr. Felicien, Mr. Hurd
wrongfully remained in prison for at least 11 months
and 11 days beyond the date on which state law mandated that he be released.
FIRST CAUSE OF ACTION
42 U.S.C. § 1983. Violation of substantive
due process under the Fifth and Fourteenth Amendments. Defendants Mixon
and Fredenburgh.
Plaintiff repeats and realleges each allegation
contained in the preceding paragraphs as if fully set
forth herein.
Plaintiff was legally entitled to be immediately released upon his transfer to DOCCS custody
based on the City jail-time credit to which he was automatically entitled as a matter of law, together with
the good-time credit he had been actually awarded in
accordance with state statute.
He had a liberty interest in his timely release
conferred upon him by New York State law.
Defendants Fredenburgh and Mixon knew or
should have known that Plaintiff’s original JTC certifying that he was entitled to 996 days of jail-time
credit was correct and that Plaintiff was legally entitled to be immediately released.
They knew or should have known that any reduction of the jail-time credit certified in Plaintiff’s
original JTC would be incorrect and would cause him
to remain wrongfully imprisoned.

59a
They knew or should have known that the
amended JTCs issued by Mr. Felicien were incorrect
and would cause Plaintiff to remain wrongfully imprisoned.
Nevertheless, they failed to prevent the erroneous JTCs from being issued or to correct the erroneous JTCs.
They had a duty to ensure Plaintiff’s timely
release.
Defendants Mixon and Fredenburgh acted
knowingly, willfully, intentionally, and with deliberate or reckless indifference to Plaintiff’s right to be released, in a manner shocking to the conscience, to
cause Plaintiff to be wrongfully imprisoned for more
than 11 months beyond the date on which he was legally entitled to be released.
As a result of this misconduct, Defendants
Mixon and Fredenburgh are liable to Plaintiff for their
violation of his constitutional right to substantive due
process under the Fifth and Fourteenth Amendments
to the United States Constitution.1
SECOND CAUSE OF ACTION
42 U.S.C. § 1983. Cruel and unusual punishment in violation of the Eighth and
Fourteenth Amendments. Defendants
Mixon and Fredenburgh.
Plaintiff repeats and realleges each allegation
contained in the preceding paragraphs as if fully set
forth herein.

1

Mr. Felicien is not named in this lawsuit because he is deceased.

60a
Plaintiff was legally entitled to be immediately released upon his transfer to DOCCS custody
based upon the City jail-time credit to which he was
automatically entitled as a matter of law, together
with the good-time credit he had been actually
awarded in accordance with state statute.
He had a liberty interest in his timely release
conferred upon him by New York State law.
Plaintiff was wrongfully imprisoned beyond
the date on which he was legally entitled to be released for at least 11 months and 11 days.
Making a human being spend that many days
in prison beyond the date on which he was legally entitled to be released inflicts a harm of such magnitude
that it violates that person’s Eighth Amendment right
against cruel and unusual punishment, as applied to
the states under the Fourteenth Amendment.
Defendants Mixon and Fredenburgh knew or
should have known that Plaintiff was legally entitled
to be immediately released, and that he would remain
wrongfully imprisoned if he did not receive the jailtime credit to which he was entitled.
Nevertheless, Defendants Mixon and Fredenburgh knowingly, intentionally, willfully, recklessly,
or out of deliberate indifference caused Plaintiff’s jailtime credit to be reduced and/or failed in their responsibility to correct the false calculation, as a result of
which he remained wrongfully imprisoned for more
than 11 months beyond the date on which he was legally entitled to be released.
Defendants Mixon and Fredenburgh are liable to Plaintiff for causing him to suffer cruel and unusual punishment within the meaning of the Eighth

61a
and Fourteenth Amendments to the United States
Constitution.
THIRD CAUSE OF ACTION
42 U.S.C. § 1983. Failure to intervene in
violation of the Eighth and Fourteenth
Amendments. Defendants Mixon and Fredenburgh.
Plaintiff repeats and realleges each allegation
contained in the preceding paragraphs as if fully set
forth herein.
Mr. Felicien violated Plaintiff’s Eighth and
Fourteenth Amendment rights to be immediately released upon his transfer to DOCCS custody.
Defendants Mixon and Fredenburgh each had
an affirmative duty to Plaintiff to protect these constitutional rights from infringement by other government officials.
Defendants Mixon and Fredenburgh knew
that Plaintiff’s constitutional rights would be violated
if any of Mr. Felicien’s incorrect JTCs were to go into
effect.
Defendants Mixon and Fredenburgh both had
reasonable opportunities to intervene.
Nevertheless, Defendants Mixon and Fredenburgh intentionally, recklessly, or out of deliberate indifference failed to take reasonable steps to intervene.
In failing to intervene, Defendants Mixon and
Fredenburgh were a proximate cause of Plaintiff’s
wrongful imprisonment for more than 11 months beyond the date on which he was legally entitled to be
released, in violation of his right to be free from cruel
and unusual punishment.

62a
FOURTH CAUSE OF ACTION
State-law intentional infliction of emotional distress. Defendants Mixon and the
City of New York.
Plaintiff repeats and realleges each allegation
contained in the preceding paragraphs as if fully set
forth herein.
Defendant Mixon and Mr. Felicien knew or
should have known that Plaintiff was legally entitled
to be immediately released and that any reduction of
the jail-time credit certified in Plaintiff’s original JTC
would be incorrect and would cause him to remain
wrongfully imprisoned.
Nevertheless, they caused Mr. Felicien’s erroneous JTCs to be issued and failed to correct the erroneous JTCs once they had been issued.
This conduct was extreme and outrageous.
Defendant Mixon and Mr. Felicien engaged in
such conduct with an intention to cause Plaintiff, or in
reckless disregard of the substantial probability that
it would cause Plaintiff, severe emotional distress.
This conduct by Defendant Mixon and Mr. Felicien was a proximate cause of the severe emotional
distress that Plaintiff suffered during, and continues
to suffer after, his wrongful imprisonment.
Defendant City of New York is liable for the
conduct of Defendant Mixon and Mr. Felicien under
the principle of respondeat superior.

63a
FIFTH CAUSE OF ACTION
State-law false imprisonment. Defendants Mixon and the City of New York.
Plaintiff repeats and realleges each allegation
contained in ¶¶ 1-91 as if fully set forth herein.
Defendant Mixon and NYCDOC employee Felicien intended to confine Plaintiff.
Plaintiff was conscious of his confinement.
Plaintiff did not consent to his confinement.
Plaintiff’s confinement was not privileged.
Defendant City of New York is liable for the
conduct of Defendant Mixon and Mr. Felicien under
the principle of respondeat superior.
SIXTH CAUSE OF ACTION
State-law negligence. Defendants Mixon
and the City of New York.
Plaintiff repeats and realleges each allegation
contained in ¶¶ 1-91 as if fully set forth herein.
Defendant Mixon and NYCDOC employee Felicien owed a duty to Plaintiff to accurately calculate
his jail-time credit or to cause known errors to his jailtime credit calculation to be corrected.
Defendant Mixon and NYCDOC employee Felicien negligently breached that duty.
These breaches caused Plaintiff to be wrongfully imprisoned for more than 11 months beyond the
date on which he was legally entitled to be released
and to suffer substantial mental and emotional harm
and other injuries.

64a
Defendant City of New York is liable for the
negligence of Defendant Mixon and Mr. Felicien under the principle of respondeat superior.
SEVENTH CAUSE OF ACTION
42 U.S.C. § 1983 and Monell. Defendant
City of New York based on the NYCDOC’s
failure to adequately train, supervise,
and/or discipline its employees.
Plaintiff repeats and realleges each allegation
contained in ¶¶ 1-91 as if fully set forth herein.
NYCDOC employees Mixon and Felicien, acting knowingly, intentionally, recklessly, negligently,
out of deliberate indifference, and/or out of ignorance,
violated Plaintiff’s right to substantive and procedural
due process under the Fifth and Fourteenth Amendments and his right to be free from cruel and unusual
punishment under the Eighth Amendment, and
caused his resulting deprivation of liberty and other
injuries.
Under the principles of municipal liability for
federal civil rights violations, the Commissioner of the
NYCDOC (the “Commissioner”) and/or his authorized
delegates, during all times relevant to this complaint,
had final responsibility for training, instructing, supervising, and disciplining NYCDOC employees with
respect to those employees’ obligations, consistent
with the Fifth, Eighth, and Fourteenth Amendments
to the United States Constitution, to ensure the issuance of accurate JTCs so that persons who had served
time in the custody of NYCDOC were not imprisoned
after they were legally entitled to be released.
In his role as policymaker, the Commissioner
and/or his authorized delegates maintained a policy,

65a
custom, or practice of deliberate indifference to past
violations by NYCDOC employees of the above-enumerated constitutional obligations, to the risk of future such violations, and to the obvious need to adequately train, supervise, and/or discipline NYCDOC
employees with respect to these obligations.
The aforesaid deliberate or de facto policies,
procedures, regulations, practices, and/or customs (including the failure to properly instruct, train, supervise, and/or discipline employees) were implemented
or tolerated by policymaking officials for Defendant
City—including but not limited to the Commissioner—who knew, or should have known:
a. to a moral certainty that such policies, procedures, regulations, practices, and/or customs concern issues that employees of
NYCDOC regularly confront;
b. that such issues present NYCDOC employees with difficult choices of the sort that
training, supervision, and/or discipline will
make less difficult;
c. that NYCDOC employees facing such difficult choices often have incentives to make
the wrong choices;
d. that the wrong choice by NYCDOC employees in such circumstances will frequently
cause the deprivation of the constitutional
rights of prisoners and resulting constitutional injuries; and
e. that NYCDOC employees had a history of
making wrong choices in such matters.
The need to adequately train, supervise,
and/or discipline NYCDOC employees was especially

66a
obvious given the difficult nature of jail-time calculations, for which more than the application of common
sense is required.
At the time of Plaintiff’s unconstitutionally
prolonged imprisonment, NYCDOC policymaking officials knew that there had been a history of NYCDOC
employees mishandling the calculation of jail-time
credit, which had resulted in violations of the constitutional rights of prisoners.
Before Plaintiff was transferred from
NYCDOC to DOCCS custody, Al Jazeera America ran
a publicly-available article about an inmate, Michael
McPherson, who, due to an erroneous JTC, served 212
days in DOCCS custody after he was legally entitled
to be released.2
According to this article, a paralegal at the
New York City Legal Aid Society reported having to
correct 100 to 200 erroneous calculations each year for
clients.
The article attributed these chronic errors, in
part, to “indifferent prison [and jail] bureaucracies.”
The article also reported that “two veterans of
the [NYCDOC] who retired in 2005 after collectively
serving 40 years say they did not receive any training
in sentence calculation nor were they aware of such
mandatory training despite their involvement in calculating sentences and overseeing discharges.”

See Arvind Dilawar, Inaccurate sentencing condemns prisoners
to serve longer than is lawful, Al Jazeera America, Feb. 24, 2016,
http://america.aljazeera.com/articles/2016/2/24

2

/inaccurate-sentences-in-prison-for-the-wrong-time.html.

67a
In the three years before NYCDOC officials
mishandled Plaintiff’s jail-time calculation, NYCDOC
received more than one grievance a day about the mishandling of jail-time calculations:
a. 474 grievances related to jail-time calculations in FY 2013;
b. 489 grievances related to jail-time calculations in FY 2014; and
c. 419 grievances related to jail-time calculations in FY 2015.3
In its report containing these statistics, the
New York City Board of Correction recommended that
the NYCDOC devote additional resources to addressing such grievances.
However, the number of grievances actually
increased following the publication of the report; in
FY 2017, NYCDOC received 567 grievances about jailtime calculations.4
Although NYCDOC policymaking officials
knew that their employees routinely mishandle jailtime credit calculations, upon information and belief,
no NYCDOC employee was ever disciplined for mishandling a person’s jail-time Calculation.5
See A Study of the Department of Correction Inmate Grievance
and Request Program, N.Y.C. Bd. of Corr., Oct. 2016, at 9,
https://www1.nyc.gov/assets/boc/downloads/pdf/final_board_of_correctionreport_oct2016.pdf.

3

See Second Assessment of the New York City Department of Correction Inmate Grievance System, N.Y.C. Bd. of Corr., June 2018,
at 27, https://www1.nyc.gov/assets/boc/downloads/pdf/Meetings/2018/June-12-2018/GrievanceAuditReport_Final_2018.11.06.pdf.

4

5

Defendant Mixon, NYCDOC’s Jail Time Coordinator, testified

68a
Nor, despite this history, did NYCDOC provide essential training to its employees concerning
how to read and understand state statutes and judicial decisions governing the calculation of jail time
credit.6
Defendant Mixon has never received such
training or been disciplined despite having a known
history of mishandling jail-time calculations and causing potential monetary liability to New York City.
In 2016, Robert Gist sued Mixon and other
government officials.
Mixon knew Gist was wrongfully being held
in prison because of an erroneous JTC issued by
NYCDOC, but Mixon nevertheless delayed correcting
the error for more than a year.
The City paid Gist substantial monetary damages as a result of that lawsuit.
In 2017, Glenn Kindler sued Mixon and other
government officials.
NYCDOC officials erroneously failed to issue
a JTC for Kindler, which resulted in his being wrongfully imprisoned for more than 250 days. Mixon knew
about this error yet failed to correct it for six months.
Mixon was also a named defendant in a lawsuit brought by Christian Aponte in 2017.
in a sworn deposition earlier this year that, despite having been
employed by NYCDOC for many years, she was not aware of any
employee ever being disciplined for miscalculations causing prisoners to be held beyond the date they were required by law to be
released.
6 Defendant Mixon testified that she, as the NYCDOC’s Jail Time
Coordinator, has never received such training.

69a
After Aponte’s lawyer called Mixon to ensure
that Aponte would be not be detained on Rikers Island
past the date on which he was legally entitled to be
released, Mixon emailed the lawyer saying she was
leaving work for the weekend and there was nothing
she could do.
As a result, Aponte wrongfully remained in
custody over the weekend.
Despite these allegations, Mixon was never
disciplined in relation to the mishandling of any person’s jail-time calculation.7
In addition, before Plaintiff’s wrongful imprisonment, NYCDOC policymaking officials knew or
should have known that Mr. Felicien was responsible
for many of the hundreds of erroneous JTCs that
NYCDOC had issued.
Mr. Felicien’s lack of competence with respect
to the accurate calculation of jail-time credit was also
evident from the JTCs he issued in Plaintiff’s case.
Over the course of a month, Mr. Felicien issued four different JTCs for Plaintiff, each of them
containing an erroneous calculation of Plaintiff’s jailtime credit.
These JTCs were riddled with typos, garbled
sentences, simple factual mistakes (like misstating
Plaintiff’s date of arrest), and basic errors of arithmetic.
Mr. Felicien had previously produced numerous JTCs that were similarly full of errors.

7

Mixon admitted this in her deposition.

70a
It would have been obvious to anyone supervising Mr. Felicien either that he required further
training and supervision in order to produce accurate
JTCs or that he lacked the ability to reliably produce
accurate JTCs and thus should not be trusted with
that task.
But he did not receive such supervision or
training.
Despite NYCDOC policymaking officials’
knowledge of the obvious need to implement adequate
policies, procedures, regulations, practices, customs,
training, supervision, and/or discipline to prevent
NYCDOC employees, including Defendant Mixon and
Mr. Felicien, from violating the constitutional rights
of prisoners by mishandling jail-time calculations,
these policymaking officials, deliberately indifferent
to such need, failed to take such measures.
Indeed, policymaking officials knew, but did
nothing to address, the custom, pattern, or practice by
NYCDOC employees of mishandling the calculation of
jail-time credit, in violation of the above-enumerated
constitutional rights of persons who have been held in
NYCDOC custody.
The aforesaid policies, procedures, regulations, practices, and/or customs of Defendant City
were collectively and individually a substantial factor
in bringing about the aforesaid violations of Plaintiff’s
rights under the Constitution and laws of the United
States and in causing his damages.
By virtue of the foregoing, Defendant City of
New York is liable for having caused the foregoing violations of Plaintiff’s constitutional rights and his constitutional injuries.

71a
EIGHTH CAUSE OF ACTION
42 U.S.C. § 1983 and Monell. Defendant
City of New York based on the NYCDOC’s
violation of Plaintiff’s right to procedural
due process.
Plaintiff repeats and realleges each allegation
contained in ¶¶ 1-91 and ¶¶ 135-171 as if fully set
forth herein.
Defendant Mixon’s and Mr. Felicien’s actions
were not random or unauthorized.
Rather, Mixon and Felicien were acting based
on established government procedures.
These procedures were inadequate to satisfy
the due process rights, guaranteed by the Fifth and
Fourteenth Amendments of the United States Constitution, of persons whose jail-time credit was being or
had been calculated by NYCDOC officials.
Even though NYCDOC policymaking officials
were aware that NYCDOC employees mishandled the
JTCs of at least hundreds of persons every year, and
received hundreds of such complaints from persons in
NYCDOC custody every year, established procedures
did not provide for the meaningful review of JTCs to
ensure their accuracy before they were issued.
Nor did established procedures provide for
the meaningful review of complaints that previously
issued JTCs were inaccurate.
Further, NYCDOC policymaking officials
knew that it was the practice of DOCCS officials to
claim, in response to prisoners’ complaints about inaccurate JTCs, that only NYCDOC could address such
complaints, thus making it all the more crucial that

72a
NYCDOC establish adequate procedures for reviewing such complaints.
The private interests that were affected by
the failure of NYCDOC policymaking officials to establish adequate procedures were immense: hundreds
of persons each year spent days, months, or years
wrongfully imprisoned after they were legally entitled
to be released.
The risk that existing procedures, such as
they were, would cause such deprivations of liberty
was high.
The probable value of adding procedural safeguards to ensure such meaningful review was immense, as it would have prevented hundreds of persons each year from being deprived of their liberty.
The City government’s interest in ensuring
that hundreds of people were not illegally imprisoned
substantially outweighed the comparatively minor
cost of adding procedural safeguards to prevent such
wrongful deprivations of liberty.
Policymaking officials knew or should have
known that established procedures were inadequate
to satisfy the constitutional due process rights of persons whose jail-time credit was being or had been calculated but, out of deliberate indifference for those
persons’ constitutional rights, these policymaking officials failed to establish adequate procedures.
The failure of NYCDOC policymaking officials to establish constitutionally adequate procedures for ensuring the issuance of accurate JTCs directly and proximately caused the deprivation of
Plaintiff’s liberty and related injuries at the hands of

73a
NYCDOC employees Mixon and Felicien, in violation
of Plaintiff’s constitutional right to due process.
By virtue of the foregoing, Defendant City of
New York is liable for having substantially caused the
foregoing violations of Plaintiff’s constitutional rights
and his constitutional injuries.
NINTH CAUSE OF ACTION
State-law negligent hiring, training, and
supervision. Defendant City of New York.
Plaintiff repeats and realleges each allegation
contained in ¶¶ 1-91 and ¶¶ 135-185 as if fully set
forth herein.
By virtue of the foregoing, Defendant City of
New York is liable to Plaintiff because of its intentional, deliberately indifferent, careless, reckless,
and/or negligent failure to adequately train, hire, supervise, and discipline its agents, servants, and/or employees.
DEMAND FOR DAMAGES
WHEREFORE, Plaintiff Devar Hurd demands
judgment against Defendants as follows:
a. compensatory damages of not less than
$1,040,000;
b. punitive damages against Defendants
Mixon and Fredenburgh of not less than
$1,000,000;
c. reasonable attorneys’ fees, together with
costs and disbursements, pursuant to 42
U.S.C. § 1988 and the inherent powers of
this Court;

74a
d. pre-judgment interest as allowed by law;
and such other and further relief as this
Court may deem just and proper.
/s/ Joel B. Rudin
JOEL B. RUDIN
Law Offices of Joel B. Rudin, P.C.
Carnegie Hall Tower
152 West 57th Street, 8th Floor
New York, New York 10019
(212) 752-7600
jbrudin@rudinlaw.com
Attorney for Plaintiff
Dated: New York, New York
November 2, 2018

